<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2020

                              ----------                              


                         WEDNESDAY, MAY 1, 2019

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:01 a.m. in room SD-192, Dirksen 
Senate Office Building, Hon. Richard Shelby (chairman) 
presiding.
    Present: Senators Shelby, Collins, Murkowski, Moran, 
Hoeven, Boozman, Durbin, Murray, Reed, Tester, Schatz, and 
Baldwin.

                         DEPARTMENT OF DEFENSE

                         Department of the Navy

                        Office of the Secretary

STATEMENT OF HON. RICHARD V. SPENCER, SECRETARY


             opening statement of senator richard c. shelby


    Senator Shelby. The committee will come to order.
    Good morning. I am pleased today to welcome Secretary of 
the Navy Spencer, Admiral Richardson, and General Neller for a 
review of the Navy and the Marine Corps' fiscal year 2020 
budget request and also for an update on Naval operations.
    For the fiscal year 2020, the Navy and Marine Corps are 
requesting $205.6 billion, an increase of $9.5 billion over 
amounts appropriated for 2019.
    Last year, the Department of Defense received its full 
budget at the beginning of the fiscal year for the first time 
in 10 years.
    In addition to reviewing your 2020 request, we would like 
to hear how the timely enactment of the 2019 funds is 
increasing our military readiness and accelerating our 
modernization.
    This year's budget request is informed by the 2018 National 
Defense Strategy, which describes a new era of great power 
competition with China and Russia.
    Last week, two Carrier Strike Groups with over 10 ships, 
130 aircraft, and 9,000 sailors and marines met up in the 
Mediterranean for joint operations. It is only the second time 
in 20 years that the two aircraft carriers have operated in the 
Mediterranean together. Hopefully, you can share some more 
details about the significance of this event with us today.
    It certainly shows the role of aircraft carriers to Naval 
operations, and the committee notes yesterday's announcement 
that the Navy will not decommission the USS Harry S Truman 25 
years early, as initially proposed. We would welcome more 
details on your revised plans.
    Admiral Richardson, General Neller, I understand this will 
likely be your last appearance before our subcommittee in your 
current roles. We certainly appreciate your service to our 
Country and wish you the best in the future.
    [The statement follows:]
            Prepared Statement of Senator Richard C. Shelby
    Good morning, the Subcommittee will come to order. I am pleased to 
welcome Secretary Spencer, Admiral Richardson and General Neller for a 
review of the Navy and Marine Corps' fiscal year 2020 budget request, 
and for an update on Naval operations.
    For fiscal year 2020, the Navy and Marine Corps are requesting 
$205.6 billion, an increase of about $9.5 billion over amounts 
appropriated for fiscal year 2019. Last year, the Department of Defense 
received its full budget at the beginning of the fiscal year for the 
first time in 10 years. In addition to reviewing your fiscal year 2020 
request, we would like to hear how the timely enactment of fiscal year 
2019 funds is increasing our military readiness and accelerating 
modernization.
    This year's budget request is informed by the 2018 National Defense 
Strategy which describes a new era of great power competition with 
China and Russia.
    Coincidentally, last week two Carrier Strike Groups with over 10 
ships, 130 aircraft and 9,000 sailors and Marines met up in the 
Mediterranean for joint operations. It is only the second time in 20 
years that two aircraft carriers have operated in the Mediterranean 
together. Hopefully, you can share some more details about the 
significance of this event with us. It certainly shows the role of 
aircraft carriers to Naval operations, and the Committee notes 
yesterday's announcement that the Navy will not decommission the USS 
Harry S Truman 25 years early, as initially proposed. We would welcome 
more details on your revised plans.
    Admiral Richardson, General Neller, I understand that this will 
likely be your last appearance before our Subcommittee in your current 
roles. We thank you both for your service to our Nation and wish you 
``fair winds and following seas'' and ``Semper Fidelis'' in your 
upcoming retirements.
    Now I turn to the Vice Chairman, Senator Durbin, for his opening 
remarks. Thank you.

    Senator Shelby. Senator Murray, do you have an opening 
statement?

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Well, thank you, Mr. Chairman.
    Let me just say on behalf of our Ranking Member, my friend 
Senator Durbin, I am pleased to join you, Senator Shelby, in 
welcoming today's witnesses here to talk about the fiscal year 
2020 Department of the Navy budget request.
    I know the Ranking Member would also like for me to extend 
thank-yous to today's witnesses, Admiral Richardson and General 
Neller, who are appearing before this subcommittee for the last 
time because of impending retirements. Thank you for your 
steadfast leadership and decades of service to our Nation.
    Senator Durbin is delayed at another hearing, but if he 
were here right now, he would mention that it has been nearly 8 
months since Hurricane Florence, a storm the size of New 
Jersey, which pummeled military bases along the East Coast, 
including the Marine Corps Camp Lejeune and Air Stations New 
River and Cherry Point in North Carolina.
    He would remind our witnesses that due to that natural 
disaster, our marines and their families are still living and 
working under blue tarps and in mold-invested buildings, 
causing unnecessary illness.
    And he would remind our witnesses, the Pentagon has nearly 
$3 billion of reprogramming authority at its disposal that 
could be used to repair those hurricane-stricken bases and take 
better care of our servicemembers, and that is a reprogramming 
I bet would get plenty of bipartisan support if it were sent to 
Congress.
    But it is not just our military bases. When it comes to 
areas in which our armed forces could be investing Federal 
dollars to strengthen national security and improve military 
readiness, there is no shortage of needs, from strengthening 
access to affordable high-quality child care on our military 
basis to investing in our military families and boosting 
servicemember pay and more.
    However, instead of investing in these priorities that will 
help ensure our men and women in uniform have the support and 
resources they need to care for themselves and defend our 
freedoms, the Department of Defense is saving its reprogramming 
authority to send even more taxpayer funds to finance President 
Trump's wall on the southern U.S. border.
    Mr. Chairman, I know Senator Durbin finds this 
unacceptable, and so do I. And so should all of us. Our 
servicemembers and our people are our Nation's greatest 
resource when it comes to keeping our Country safe. When we 
invest in them, we are strengthening our national security 
because we are ensuring our sailors and marines on the front 
lines have what they need to do, the vital job we have asked 
them to do.
    We should be strengthening our investments in these and 
other priorities, like improving child care for military 
families, to help ensure the welfare of our servicemembers and 
the continued strength of our armed forces, not diverting 
critical Federal dollars to fund reckless projects that stem 
from manufactured crises.
    I said before that budgets are a statement of our values 
and priorities, and that is still true today. Just as 
important, budgets also provide a blueprint to show how we plan 
to govern and solve the challenges impacting working families 
in our communities, which is why I find it puzzling the 
administration has prepared a budget that resorts to gimmicks.
    Cutting funds for the Department's baseline budget while 
simultaneously proposing to pump more and more funds into the 
overseas contingency operations, or OCO account, a maneuver 
that makes for funny budget math, obfuscates the Department's 
investment in personnel and other critical priorities, and 
attempts to circumvent the principles agreed to by Congress in 
three separate bipartisan deals now for how we should fund both 
defense and non-defense priorities.
    Even more rash, this method of budgeting does not allow our 
military leaders to effectively plan and keeps them guessing if 
they will have the resources they need from year to year.
    So I think it is essential this committee and the Senate 
take the first steps towards reaching another bipartisan budget 
agreement, and we will need your help in this process to help 
us reach a bipartisan agreement that both meets our budgetary 
obligations and keeps the promise we needed to care for our 
women and men in uniform.
    This committee wants to work with each of the leaders on 
the panel to look out for the best interests of our sailors and 
marines, and I look forward to a thorough discussion of these 
issues and more and thank all of our witnesses today for being 
here for your testimony.
    Thank you, Mr. Chairman.
    Senator Shelby. Secretary, Mr. Secretary, we appreciate 
your appearance today. All of your written testimony will be 
made a part of the record in its entirety.
    You proceed as you wish.

              SUMMARY STATEMENT OF HON. RICHARD V. SPENCER

    Secretary Spencer. Thank you, Mr. Chairman, Senator Murray, 
distinguished members of the committee. On behalf of our 
sailors, marines, and our civilian teammates, I want to thank 
you for your bipartisan efforts to provide us timely funding 
and steady funding. It is the lifeblood of our ability to 
restore readiness.
    I do want to take a moment right now because I would be 
remiss if I did not take a moment to thank the two gentlemen on 
my right and my left.
    Wearing my Title 10 hat and coming from Corporate America, 
I can say that these two gentlemen were the best business 
partners that I could imagine to have during the restructuring 
that we have gone through over the last 22 months.
    We have pushed the envelope in certain areas, and at all 
times, there was no light between us. And we were in 
communication and lockstep in all our efforts, and to them, I 
would like to say thank you.
    The concept of a strategy is the application of limited 
resources to attain a goal. Aligned to the National Defense 
Strategy, the Navy-Marine Corps strategy for restoring 
readiness, strengthening relationships, and reforming our 
processes has been set, and we are building on that in a 
disciplined focus that focuses on people, capability, and 
process.
    This budget prioritized a strategy-driven, balanced 
approach to investment. It builds on prior investments, 
sustains the industrial base, and maintains our competitive 
advantage as we transition to a more cost-imposing, survivable, 
and affordable cost of the future.
    The restoration of readiness is well under way, and we are 
seeing progress every day. My analogy is that the weather vanes 
are all pointed in the right direction, and while we might be a 
bit frustrated with the rate of velocity of the wind, it is 
increasing every single day.
    We are building the strength of our team through hiring in 
areas of critical need, such as cybersecurity specialists, 
aviation technicians, engineers, scientists, human resource 
specialists, shipyard workers, and digital warfare officers. In 
that light, you have provided us the needed resources for 
hiring experts. One of the things we also must focus on now is 
to address the ability to have competitive salaries to fill 
those billets.
    We are aligning and enhancing our educational institutions 
and distributed learning venues through the Education for 
Seapower Review. We are taking aggressive actions to return 
private military housing to a premium product, mindful that we 
recruit the individual, but we retain the family. All of these 
actions have one common thread that runs through them: the goal 
of increased readiness.
    We are building our capabilities through investments in 
hypersonics, machine learning, additive manufacturing, quantum 
computing, and directed energy. We are building the fleet in 
pursuit of a 355-ship Navy, manned and unmanned, to include the 
Columbia-class Submarine, the Next Generation Frigate, and 
remotely piloted platforms such as Sea Hunter and Orca. These 
efforts are increasing lethality through increased distributed 
maritime operations.
    To reach the Secretary's goal of 80 percent mission-capable 
tactical aircraft, we have aligned investments in spare parts, 
aviation engineering, and logistical support through our newly 
created Navy Sustainment System, looking outside the wire to 
incorporate commercial best practices and industrial processes.
    An example, our most recent F-18 readiness indicators show 
a 68 percent mission-capable Navy F-18 squadrons and 72 percent 
mission-capable Marine Corps F-18s, a far sight better than 22 
months ago.
    As a pilot program, these activities have moved us to 
review our processes in all maintenance areas within the Naval 
enterprise, to include ship, weapon, and vehicle maintenance 
and sustainment.
    Driven by the Marine Corps Force 2025 capability investment 
strategy, we are investing in the Amphibious Combat Vehicle, 
loitering munitions, and unmanned logistical systems in order 
to maintain and expand our competitive advantage on the 
margins.
    Exercising the Marine Corps operating concept is moving us 
to rapidly progress as a continual learning organization as we 
adapt and experiment in our new competitive environment.
    Yet while we effect the aforementioned, the Marine Corps is 
also contending with the unprecedented double impact of 
Hurricanes Florence and Matthew, which together damaged and 
destroyed $3.7 billion of infrastructure across many of our 
East Coast installations.
    Camp Lejeune, as many of you know, is a primary force 
generator for the Naval Services, directly contributing to the 
capacity and readiness of our overall force. This area took the 
majority of the blunt impact of those storms.
    We need relief through supplemental funding as soon as 
possible for two reasons. One, the fiscal year is closing upon 
us; and two, we are about to enter the new hurricane season.
    We completely appreciate the work this committee has done 
reprogramming $400 million to immediately begin addressing our 
most pressing infrastructure needs, and we look forward to 
working with you to address the remaining $449 million 
shortfall within fiscal year 2019 and then the $2.8 billion 
required to fully recover.
    Over the past year, we have meaningfully increased our 
interaction with our allies and friends. Exercising and 
education have strengthened our ability to operate and 
therefore increasing the depth of our collective ability to 
deliver the resources required.
    Compared to a year ago, the increase in this depth of our 
relationship with our allies and friends has been the prime 
contributor to this excellent outcome.
    Our Navy has adjudicated 91 of the 111 Readiness Reform and 
Oversight Council recommendations and fully implemented 83 to 
date, transforming a culture that was accepting risk to one of 
understanding and managing risk.
    We have reviewed and are in the process of remediating our 
business processes following our first top-to-bottom audit. The 
audit is now proving to be a tool where we find we can leverage 
lethality.
    We are using this information to streamline operations and 
reimagine how support functions can be modernized to drive 
continued learning and therefore ever increasing efficiencies 
for the American taxpayer. We owe it to them to ensure every 
dollar we invest--every dollar--is invested in the most 
effective manner possible.
    I am proud to work with this committee to keep that 
promise. Thank you very much.
    [The statement follows:]
             Prepared Statement of Hon. Richard V. Spencer
    Chairman Shelby, Vice Chairman Durbin, distinguished committee 
members. On behalf of our Sailors, Marines and civilian teammates, 
thank you for your bipartisan efforts to restore funding stability to 
the Department of the Navy.
    The concept of a strategy is the application of limited resources 
to attain a goal. Aligned to the National Defense Strategy, the Navy 
strategy for restoring readiness, strengthening relationships and 
reforming our processes has been set, and we build on that with a 
disciplined focus on people, capabilities, and processes.
    This budget prioritized a strategy driven, balanced approach to 
investment. It builds on prior investments, sustains the industrial 
base, and maintains our competitive advantage as we transition to a 
more cost imposing, survivable and affordable future force. The 
restoration of readiness is well underway and we are seeing progress 
each and every day. All the weathervanes are pointed in the correct 
direction, and although we might be frustrated with the velocity of the 
wind, we continue to increase it day by day.
Where We Were
    At my confirmation hearing in July 2017, I stated my intent to 
expeditiously assess the current situation, develop the tools needed to 
enhance its ability to fight, and to deliver on the Title 10 
responsibilities of the Office of the Secretary the Navy. My priorities 
for accomplishing these goals centered on three key areas: people, 
capabilities, and processes.
    I expressed my determination to recruit, train and retain the best 
of our Nation for our military and civilian ranks, and to create a 
flat, lean and agile organization where those who manage critical 
situations have the ability to make decisions to solve the problems in 
front of them.
    I committed to rebuild the readiness and lethality of our 
capabilities, citing cumulative effects of 16 years of wartime 
operational tempo, unpredictable funding, and challenges to our 
warfighting advantage as we return to a geostrategic environment 
dominated by great power competition.
    And as a businessman, I expressed my determination to improve our 
processes across the portfolio, analyzing all systems and platforms to 
extract additional efficiencies, incorporating private sector best 
practices, and migrating to a true continual learning enterprise.
Where We Are
    Over the past year and a half, Admiral Richardson, General Neller 
and I have attacked these goals with a sense of urgency by investing in 
our people, capabilities and processes.
    To build the strength of our people, we've invested in a ready, 
relevant and responsive force: A Marine Corps force with 186,200 active 
personnel and 38,500 reservists; the Targeted Reentry Program to enable 
key former personnel a streamlined return into active-duty; quality of 
life and retention efforts like the MyNavy Career Center, which 
provides Sailors with human resource services around the clock; and the 
military parental leave program. We've used the increased Defense 
Officer Personnel Management Act (DOPMA) flexibility from the fiscal 
year 2019 NDAA to support dynamic changes and requirements in technical 
expertise, agility and innovation in our officers. We've invested in 
our civilian workforce, including enhanced hiring and training at our 
public shipyards to reach our fiscal year 2020 goal of 36,100 personnel 
1 year earlier than originally planned.
    We've enhanced our capabilities, through targeted investments in 
the lethality and readiness of our weapons platforms and munitions. We 
have accomplished this through strengthening our partnerships with the 
private sector. We've gleaned commercial best practices to increase 
efficiency and flow in our ship, ground and aviation maintenance 
facilities. The Navy has added 22 Battle Force Ships over fiscal year 
2017 and fiscal year 2018, while decommissioning nine, for a net 
addition of 13 ships. The Marine Corps has reset 99 percent of ground 
equipment and returned 72 percent of our equipment to the operating 
forces. We have also enabled personnel to ``fix it forward'' through 
technologies such as additive manufacturing, including the procurement 
of 160 3D printers capable of producing over 125 ground and 83 NAVAIR-
approved parts on demand.
    We've also significantly improved our operational processes, 
through the Comprehensive Review (CR) and Strategic Readiness Review 
(SRR). Over the past year, the Readiness Reform and Oversight Council 
has examined 111 recommendations from the review process. 91 have been 
adjudicated and 83 have now been implemented. We're committing the 
resources to make these changes stick, spending $173 million over this 
year and last, and requesting an additional $345.7 million in next 
year's budget. Business processes were also reviewed and remediated 
after our first ever top-to-bottom audit of the Department of the Navy, 
and we're using this information to streamline our operations and 
reimagine how support functions can be modernized in real time to drive 
greater readiness, lethality and efficiency. Through the development 
and implementation of the Navy Business Operations Plan and our 
Performance to Plan tool, we are beginning to accurately track the 
output impacts of our efforts.
    It must also be noted that the Marine Corps is contending with the 
unprecedented double impact of Hurricanes Florence and Matthew, which 
together damaged or destroyed more than $3.7B in infrastructure across 
many of our east coast installations. Camp Lejeune is a primary force 
generator for the Naval Services, directly contributing to the capacity 
and readiness of our force. The Marine Corps continues to feel the 
immediate impacts of these storms through lost and delayed training 
time; delayed deployments and redeployments; and daily quality of life 
challenges including the displacement of thousands of personnel and 
their families.
    We appreciate the work this committee has done to make available 
$400 million of reprogrammed resources to the Marine Corps to 
immediately begin addressing our most pressing infrastructure needs, 
and we will continue to work tirelessly to address our remaining $449 
million shortfall within fiscal year 2019, and the $2.8B required over 
fiscal year 2020, fiscal year 2021, and future plans to fully recover. 
Recovering from these disasters will continue to require sustained 
investment and the ongoing support of this committee.
Where We Are Going
    Now that the foundation for readiness and lethality has been set, 
we continue to move forward with a sense of urgency, continually 
thinking of how to deliver the people, capabilities and processes 
needed by the Navy--Marine Corps Team. The Naval Services have 
developed plans informed by the National Defense Strategy, which 
mandates increased lethality, strengthened alliances and partnerships, 
and improved business processes. Now we are aligning those plans with 
the right leaders, tools, budget and technology advancements.
    This budget request invests in our people with the education and 
resources necessary to develop and retain the human capital we need to 
confront a changing world. We'll expand hiring for areas of critical 
need, such as cyber security specialists, aviation technicians, 
scientists and engineers, human resource specialists, and digital 
warfare officers. We'll add end strength to the Marine Corps Special 
Operations Command. We'll complete the rollout of Sailor 2025, updating 
policies, procedures and systems to improve retention and readiness.
    Education is a key component to developing the warfighter the Navy 
and Marine Corps Team needs. We will be effecting the blueprint 
developed by the recently released Education for Seapower Review, 
aligning and enhancing our educational institutions and distributed 
learning venues. And earlier this month, along with Secretary Esper and 
Secretary Wilson, I hosted University and College Presidents and other 
education leaders from across the country for a summit at the US Naval 
Academy dedicated to eliminating the scourge of campus sexual assault 
and sexual harassment.
    We are constantly mindful that we recruit the individual, but we 
retain the family. And without the family, we are not operating at full 
capacity. As I stated before this committee last month, upon reviewing 
the issues surrounding Public-Private Venture (PPV) military housing, 
it is clear that in some cases we have fallen woefully short of our 
obligations, and there is culpability around the table. We have 
identified the problems, and are focusing resources on the solutions.
    We will correct bad practices and return private military housing 
to a premium product. This budget supports these efforts, with a 
request of $21.975 million for the oversight of the Department's PPV 
housing worldwide.
    As we move from rebuilding readiness to owning the next fight, this 
budget prioritizes a balanced and strategy-driven approach, to provide 
for a bigger, better trained, and more ready force. It invests in our 
Force 2.0 capabilities in emerging areas such as hypersonics, applied 
artificial intelligence, machine learning, quantum computing, additive 
manufacturing, directed energy and more. We will continue to build the 
fleet in pursuit of the 355 ship Navy, manned and unmanned, to include 
the Columbia-class submarine, Next Generation Frigate, and remotely 
piloted platforms such as Sea Hunter and Orca, as well as one Ford 
class aircraft carrier, three Virginia Class submarines and three 
Arleigh Burke Class destroyers.
    Driven by the Marine Corps Force 2025 capability investment 
strategy, we will continue to modernize the Marine Corps with a 21st 
Century Marine Air-Ground Task Force (MAGTF) by focusing on six key 
priorities:
  --C2 in a degraded environment;
  --Long range and precision fires;
  --Operations in the Information Environment (OIE);
  --Air defense;
  --Protected mobility and enhanced maneuver; and
  --Logistics.
    This budget invests in Networking on the Move (NOTM) capabilities, 
close combat equipment, loitering munitions, unmanned logistic systems, 
ground-based anti-ship missiles, Ground/Air Task Oriented Radar (G/
ATOR), the Joint Light Tactical Vehicle, and the Amphibious Combat 
Vehicle to ensure the Marine Corps continues to adapt to meet the 
demands of the future operating environment and maintain our 
competitive advantage.
    We will operate with data-informed end to end processes and 
incorporate leading practices to inform how we fight. To achieve the 
Secretary's goal of 80 percent mission capable aircraft in our Fleet 
Strike Fighter squadrons, this budget funds the Fleet Readiness Centers 
(FRCs) to the maximum executable levels, realigns investments to 
spares, aviation engineering and logistics support, while pursuing 
reforms such as the Navy Sustainment System, which incorporates best 
practices from commercial airline maintenance leaders. We will also 
incorporate the lessons of private industry as we invest in shipyard 
infrastructure and training to improve performance and throughput.
    These are just a few examples of how General Neller, Admiral 
Richardson, the entire Navy Marine Corps Team and I are building on the 
foundation of restored readiness and increasing lethality. We will 
continue to promote a culture of problem solving at every level, 
transform from a culture of risk removal to one of understanding and 
managing risk, and hold ourselves accountable for how and where we 
invest. Every day, we work with a sense of urgency driven by the 
knowledge that the American taxpayers provide us with their hard-earned 
treasure, and trust us to protect them from a dangerous world. We owe 
it to them to ensure that every dollar is invested in the most 
effective manner possible to fulfill our sacred oath. I'm proud to work 
with this committee to ensure that we keep that promise. Thank you.

    Senator Shelby. Admiral Richardson, do you have a 
statement?
STATEMENT OF ADMIRAL JOHN M. RICHARDSON, CHIEF OF NAVAL 
            OPERATIONS
    Admiral Richardson. Mr. Chairman, Senator Murray, and 
distinguished members of the committee, it is a privilege to 
appear alongside Secretary Spencer and General Neller today to 
discuss the Navy's fiscal year 2020 budget.
    At the dawn of our republic, President Jefferson wrote that 
industry, commerce, and security are the surest roads to 
happiness and prosperity of our people. The causal link between 
prosperity, order, and security is why he deployed the United 
States Navy to combat piracy off the Barbary Coast at the dawn 
of the 19th century. And that is why for over two centuries, we 
have helped keep the seas open for all and opposed those who 
seek to control the seas at the expense of America and our 
allies.
    Today, as outlined in the 2018 National Defense Strategy, 
nations like China and Russia are attempting to do just that, 
to stem the tide that has steadily lifted all boats by 
unilaterally redefining international norms on terms more 
favorable only to themselves.
    The Nation and the Navy are responding with more than 
60,000 sailors deployed on board nearly 100 ships and 
submarines at this very moment by sustainably operating around 
the globe, advocating for our principles, and protecting our 
national interests.
    To maintain this worldwide posture, the President's fiscal 
year 2020 budget offers a strategy-driven, future-leaning, and 
balanced approach to deliver a Naval force up to the task in 
this era of great power competition.
    The single most effective way to maintain our strategic 
momentum is to provide adequate, stable, and predictable 
funding. This makes everything possible. It solidifies 
strategic planning, incentivizes our commercial partners, and 
mitigates operational risk by maximizing our planning and 
execution time.
    Mr. Chairman, as you noted, the foundation of our Naval 
power is a force of talented and well-trained sailors. 
Important to our success, we remain committed to recruiting and 
retaining diverse shipmates whose intelligence, curiosity, 
energy, different backgrounds, and varied viewpoints will 
catalyze the speed and quality of our decisions, decisions we 
need to outperform our adversaries. And, as well, working with 
Congress, we continue to transform our human resources' systems 
to 21st century standards.
    This budget builds a bigger fleet, 55 battle force ships 
over 5 years, preserving our industrial base, and strengthening 
our ability to prevail in any warfighting contingency. This 
budget fully funds the Columbia-class ballistic missile 
submarine program, fulfilling our existential imperative to 
deter a nuclear attack on our homelands.
    This budget builds a better fleet, fielding state-of-the-
art systems that are more agile, networked, resilient, and 
lethal.
    This budget recognizes that aircraft carriers will be 
central to winning the future fight, which is why it invests in 
the Gerald R. Ford class, delivering far more combat power for 
less cost over their lifetime than the Nimitz-class 
predecessors.
    This budget also builds a ready fleet, steaming days to 
exercise at sea, flying hours to train in the air, sufficient 
quantities of ammunition and spares, and the resources to 
conduct maintenance today and in the future as the fleet size 
grows.
    Meeting the Nation's and the Navy's responsibility is not 
easy. It requires us all to work together, but this is what 
great nations and only great nations must do.
    At the dawn of the Cold War, as the Nation took on the 
challenge to go to the Moon, President Kennedy, a Naval 
officer, said, ``We do these things not because they are easy, 
but because they are hard, because that challenge is one that 
we are willing to accept, one that we are unwilling to 
postpone, and one that we intend to win.''
    I am very grateful to this committee and to your colleagues 
in the Congress for your continued vigorous support. We look 
forward to sailing alongside you to build and deliver the 
safest Navy for our sailors, the strongest partner Navy for our 
allies and friends, and a Navy that is the worst nightmare for 
our enemies.
    I look forward to your questions.
    [The statement follows:]
            Prepared Statement of Admiral John M. Richardson
    Chairman Shelby, Vice Chairman Durbin, and distinguished members of 
the committee, thank you for the opportunity to testify today on the 
Navy's fiscal year 2020 budget.
    To place this budget in its appropriate tactical, operational, and 
strategic context, we must understand what America stands for in the 
world so we don't forget it or, worse, take it for granted; the U.S. 
Navy's unique and historic connection to those core tenets; the 
challenges to those principles and our national interests by 
competitors like China and Russia--and our Navy's response; and the 
investments made in the President's Fiscal Year 2020 Budget to deliver, 
operate, sustain, and maintain a Navy that is bigger, better, and more 
ready to sail anywhere and do anything in defense of our country.
        we are a maritime nation--we rely on freedom of the seas
    Our first President, George Washington, best captured the value a 
Navy provides to the American people when he said: ``It follows then as 
certain as that night succeeds the day, that without a decisive naval 
force we can do nothing definitive, and with it, everything honorable 
and glorious.''
    Over 600,000 active and reserve Sailors and Navy civilians--
alongside our partners in the Congress, academia, industry, and around 
the world--devote much of their lives to designing, producing, and 
operating a ``decisive'' naval force. Our decisive naval force operates 
around the world, defends our national interests, stands ready to fight 
if called upon, and de-escalates tensions on our terms. The President's 
Fiscal Year 2020 Budget delivers and sustains this decisive force and 
the investments contained therein will keep our Navy on a true course 
and making best speed to, as our oath declares, ``support and defend 
the Constitution of the United States and the country whose course it 
directs.''
    Our founding values, as well as our livelihoods and collective 
national security, are tied to the world's oceans. The seas are a prime 
facilitator of our prosperity as a people. But prosperity does not and 
cannot exist in a vacuum. It is the result of secure and orderly 
conditions that enable the flow of goods and services, access to 
markets via open oceans and critical waterways, and the ability to move 
unimpeded across the seas.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The seas present both challenges and opportunities--and the rapid 
changes in the maritime environment are stark and profound. More than 
90 percent of all international trade travels by sea--60 percent of 
that by value sails in containerized vessels. In recent years, 
approximately 735 million containers were shipped worldwide annually. 
If placed end-to-end, those containers would encircle the globe at the 
Equator more than 11 times. Beyond the numbers on trade, the global 
economy's reliance on the seas for resources--rare earth minerals for 
advanced technology, energy, or aquaculture--increase their economic 
and strategic importance. The seabed also plays host to 287 undersea 
fiber-optic cables through which 99 percent of global Internet traffic 
passes, fueling the modern economy.
    Each of these developments serve to make the seas even more 
congested--and more vital.
      challenges to the united states and the international order
    Despite the United States' persistent work over two centuries to 
keep the seas open to every nation and every mariner, there are those 
who seek to upend this free and open order and stem the tide that has 
steadily lifted all boats. As discussed in the 2018 National Defense 
Strategy (NDS), China and Russia are deploying all elements of their 
national power to achieve their global ambitions. China and Russia seek 
to accumulate power at America's expense and may imperil the 
diplomatic, economic, and military bonds that link the United States to 
its allies and partners. And these actions are not only directed at the 
United States: China and Russia are working to redefine the norms of 
the entire international system on terms more favorable to themselves.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    China and Russia are determined to replace the current free and 
open world order with an insular system. They are attempting to impose 
unilateral rules, re-draw territorial boundaries, and redefine 
exclusive economic zones so they can regulate who comes and who goes, 
who sails through and who sails around. These countries' actions are 
undermining international security. This behavior breeds distrust and 
harms our most vital national interests.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    China's Belt and Road Initiative in particular is blending 
diplomatic, economic, military, and social elements of its national 
power in an attempt to create its own globally decisive naval force. 
China's modus operandi preys off nations' financial vulnerabilities. 
They contract to build commercial ports, promise to upgrade domestic 
facilities, and invest in national infrastructure projects. Slowly, as 
the belt tightens, these commercial ports transition to dual uses, 
doubling as military bases that dot strategic waterways. Then, the belt 
is cinched as China leverages debt to gain control and access. In the 
final analysis, these unfavorable deals strangle a nation's 
sovereignty--like an anaconda enwrapping its next meal. Scenes like 
this are expanding westward from China through Sri Lanka, Pakistan, 
Djibouti and now to our NATO treaty allies, Greece and Italy.
        the u.s. navy responding to challenges around the world
    The U.S. Navy is responding to this changing security dynamic by 
playing to our strengths: deploying all around the globe, regularly 
enforcing common principles, strengthening the conditions that have 
enabled mutual prosperity, and protecting our national interests. As 
you read these words, more than 60,000 Sailors are deployed on board 
nearly 100 ships and submarines to enforce a free and open order that 
enables this unprecedented flow of goods and services.
    As the National Defense Strategy makes clear, the U.S. Navy will 
compete aggressively to shape our modern maritime environment, ensuring 
that order and security continue to underpin our prosperity. We do so 
by harnessing the myriad forces at play--the increasing use of the 
maritime domain; the rise of global information systems and the role of 
data-driven decisionmaking; and the increasing rate of technological 
creation and adoption. We remain committed to challenging excessive 
maritime claims, strengthening relationships with allies and partners, 
and upholding time-tested values.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    How can we maintain this worldwide posture and compete given these 
strategic realities? How must we invest in order to build, sustain, 
organize, and strengthen ourselves so that we can continue harnessing 
the global maneuver power inherent in naval forces? The answers lie in 
the President's Fiscal Year 2020 Budget (PB-20), a submission firmly 
rooted in addressing Great Power Competition and moving boldly and 
swiftly into the future.
    Importantly, the single most effective way to maintain the 
strategic momentum started in fiscal year-2017 is to enact the 
President's Fiscal Year 2020 Budget prior to the start of the fiscal 
year. This funding will help us fulfill our responsibilities in the 
National Defense Strategy by building the Navy the Nation Needs: a 
balanced force that will increase America's naval power and safeguard 
our economic, diplomatic, and military interests around the world.
                   a bigger, better, more ready navy
    PB-20 seeks $160 billion for the U.S. Navy. For perspective, this 
request represents approximately 3 percent of the Federal budget. 
According to the Congressional Budget Office, this investment 
represents approximately half of the amount currently expended on 
servicing the national debt and one-third of current expenditures on 
Medicaid.
    This budget request preserves our industrial base and establishes 
an aggressive, forward- looking, competitive posture. Our industrial 
partners are counting on us for consistent and continuous commitments. 
Absent this behavior, we may perpetuate, rather than end, the ``boom-
and-bust'' cycles we have experienced in the past. Coincident with this 
aim to steadily grow the force and preserve our industrial base is the 
responsibility to ``own'' the additional inventory when it arrives. PB-
20 embraces future capabilities while judiciously stewarding our 
current force.
    The guiding principle of our budget request is to balance naval 
power across its many dimensions. Naval power is not a choice between 
increased capacity or better capability--it is a combination of both. 
Naval power is not a choice between readiness and modernization--it 
requires a balance of both. Naval power is not a choice between more 
complex stand-alone technologies or networked systems--it is achieved 
through both. The talent to operate and sustain a larger and more 
lethal force is not a choice between more people or better training--it 
must draw from both.
Bigger
    An ongoing force structure assessment will conclude by the end of 
2019. While data-driven analysis may ultimately change the details of 
our long-term fleet architecture, all force structure analyses agree in 
one respect: we must build a bigger Navy.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    To increase America's naval power, we will build more platforms 
like ships, submarines, and aircraft, and expand our special operations 
forces. In 2018, Congress made a 355-ship Navy the law of the land, and 
this increased capacity will strengthen our ability to prevail in any 
warfighting contingencies, meet demand signals from Combatant 
Commanders, expand global influence, and support American prosperity by 
safeguarding access to critical markets, waterways, and chokepoints.
    The fiscal year 2020 budget requests nearly $24 billion in ship 
construction accounts to fund one nuclear-powered aircraft carrier, 
three fast attack submarines, three large surface combatants, one small 
surface combatant, two combat logistics force ships, and two auxiliary 
support ships. Expanded across the Future Years Defense Program (FYDP), 
PB-20 funds construction of 55 battle force ships to achieve a 301-ship 
Navy in fiscal year 2020 and a 314-ship Navy in fiscal year 2024. Along 
with class-wide service life extensions, this puts us on pace to reach 
a 355-ship Navy in fiscal year 2034 (approximately 20 years sooner than 
PB-19). The Annual Long Range Plan for Construction of Naval Vessels 
(also referred to as the ``Thirty Year Shipbuilding Plan'') accompanies 
this budget request.
    There is no more existential imperative than deterring a nuclear 
attack on the homeland. PB-20 fully funds the Columbia-class ballistic 
missile submarine program to do just that. Fully funding this request 
now will ensure that the lead ship's construction commences on time in 
fiscal year 2021, delivers in 2028, and conducts its first alert patrol 
in CY 2030. The Columbia-class will guarantee continuity of the most 
survivable leg of the strategic deterrent triad into the 2080s. This 
budget also procures 373 fixed and rotary wing aircraft (including 84 
Block 3 F/A-18E/F Super Hornets), 226 unmanned systems, and over 17,000 
weapons and munitions across the FYDP.
    The recently approved block buy of two Gerald R. Ford-class 
aircraft carriers (CVNs 80 and 81) saves American taxpayers 
approximately $4 billion. It also maintains our trajectory towards the 
requirement of 12 more survivable and powerful aircraft carriers, and 
it gives our industrial partners much-needed predictability. It also 
represents an investment in future technologies that solidifies the 
nuclear-powered aircraft carrier as a centerpiece of national defense 
through the rest of the century.
    Finally, PB-20 funds an additional 5,100 Sailors in fiscal year 
2020 (and 18,600 over the FYDP) on top of fiscal year 2019 end strength 
levels to recruit, man, maintain, operate, and fight these added ships, 
submarines, and aircraft. Filling gapped billets at sea remains our top 
manning priority, and we are committed to operating safely, 
effectively, and sustainably over time as the battle force grows.
Better
    To increase America's naval power, we will build a better fleet--
one that is more capable, agile, networked, and resilient across all of 
our naval platforms. This means fielding state-of- the-art systems and 
continually modernizing legacy equipment. In addition to other 
modernization efforts, the fiscal year 2020 budget includes $18 billion 
for research and development--an increase of $1.4 billion over fiscal 
year 2019 enacted levels.
    For example, PB-20 includes $4 billion across the FYDP to modernize 
19 guided missile destroyers. This includes critical upgrades to AEGIS 
Baseline 9, enabling them to simultaneously perform Integrated Air and 
Missile Defense (IAMD) and Ballistic Missile Defense (BMD) operations. 
As well, improvements to Naval Integrated Fire Control Counter Air 
(NIFC-CA) will allow networked ships to share identification, 
targeting, and fire control data. PB-20 funds 160 F/A-18E/F Super 
Hornet Service Life Modifications (SLM) across the FYDP, equipping 
these aircraft with more lethality at greater ranges, improved 
signatures, and advanced networks.
    The budget also increases investments in long-range offensive ship-
, sub-, and air-launched weapon systems, including: Tomahawk Land 
Attack and Maritime Strike missile, Long-Range Anti-Ship Missile 
(LRASM), Standard Missile (SM) 6, Joint Standoff Weapon Extended Range 
(JSOW-ER), Harpoon Block II+, as well as investments in Conventional 
Prompt Strike hypersonics. The budget augments investments for acoustic 
superiority modernization by requesting $93 million in fiscal year 2020 
($633 million across the FYDP) to improve submarine quieting and sensor 
performance. To deliver capability faster, we are also leveraging 
accelerated acquisition and rapid prototyping by investing $1.3 billion 
in fiscal year 2020 ($4 billion across the FYDP) for the Navy Laser 
family of systems, SM-2/6 weapons, MQ-25 Stingray carrier-based 
unmanned aerial system, and Unmanned Underwater Vehicles.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The fiscal year 2020 budget builds on the progress made in fiscal 
year 2019 by pursuing near-term Naval Tactical Grid development and 
investing $50 million in fiscal year 2020 ($236 million across the 
FYDP) for the newly-established Digital Warfare Office to design and 
implement a comprehensive operational architecture to support emerging 
Distributed Maritime Operations concepts. The Navy will also invest 
$440 million in fiscal year 2020 (and more than $2 billion across the 
FYDP) to fund Fleet and industrial base cyber security, and hardening 
of ship hull, mechanical, and electrical systems among others.
    As these investments indicate, the Navy is focused on controlling 
the high-end fight. Nuclear- powered aircraft carriers are, and will 
continue to be, central to this effort. Ford was designed to deliver 
more capability for today's airwing and to provide growth opportunity 
for tomorrow's airwing--more lethal systems, and increased power 
generation. Ford is also proving more cost effective with a 30 percent 
higher sortie rate with a 20 percent smaller crew than her Nimitz-class 
predecessors. This translates into $4 billion savings over the life of 
the Ford class when compared to Nimitz class: in other words, more 
naval power for less cost.
    Ford is innovation on a grand scale, offering a host of new 
technologies that will greatly improve the combat power of strike 
groups. As with naval innovations of the past, we didn't get everything 
right on the first try. We have learned with each test and most of the 
new systems are now operating. And we will continue to learn, iterate, 
and improve: the second Ford-class ship is being built with 18 percent 
fewer man hours. Despite this aggressive approach to adopt new 
technologies, Ford was delivered with less lead-ship cost growth than 
several other ship classes. Ford and her successors will set a new 
standard for afloat performance and combat power projection well into 
the second half of the century.
    We are also making tough calls about the capabilities we need to 
tackle future challenges. PB-20 removes funding for USS Harry S 
Truman's (CVN 75) Refueling and Complex Overhaul (RCOH)--$3.4 billion 
over the FYDP. We are applying the funds from the RCOH decision to 
field cost-imposing advanced technologies faster. In parallel, we 
continue to validate this decision through a rigorous program of 
studies, wargames and experimentation to analytically validate the best 
way forward. We remain postured to respond to what our studies show us 
and to adjust pace in-stride, including reversing the CVN 75 decision, 
if needed.
Ready
    To increase America's naval power, we will build a ready fleet. 
This means steaming days to exercise at sea, flying hours to train in 
the air, sufficient quantities of ammunition and spares, and the 
resources to conduct emergent and planned maintenance--not only for 
today but also for the future as the Fleet grows in size. And it's not 
just about buying more parts: PB-20 includes $23 million in fiscal year 
2020 ($66 million across the FYDP) to research and develop additive 
manufacturing (AM) capabilities. Among other AM goals--such as 
expanding this capability at sea to additional ships and beginning to 
network AM across the enterprise--we intend to produce 1,000 unique 
end-use components for Fleet installation and operation by the end of 
2019. Readiness--both materiel and training proficiency--transforms our 
Navy's potential power into actual power. The knowledge and efficiency 
gained from the Department of Defense-wide audit will ensure that we do 
so as effectively as possible.
    The fiscal year 2020 budget continues the readiness and wholeness 
commitments we made in fiscal year 2017, fiscal year 2018, and fiscal 
year 2019 by funding ship and aviation readiness and enabler accounts. 
The fiscal year 2020 budget increases maritime and aviation spares 
funding compared to fiscal year 2019. Additionally, the fiscal year 
2020 budget stabilizes and incentivizes the industrial base by funding 
62 ship availabilities in public and private shipyards, shifting two 
attack submarine availabilities to private yards, and infusing $546 
million in fiscal year 2020 for naval shipyard infrastructure 
optimization. Finally, the budget includes capital investments of 12 
percent in public shipyard depot facilities and 10 percent in Fleet 
Readiness Centers, exceeding the 6 percent legislative requirement and 
underscoring our commitment to increase our capacity to maintain and 
modernize our fleet.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    These investments will help on-time maintenance execution--aircraft 
and ship availabilities-- which in turn gives our Sailors the time they 
need at sea to build proficiency and confidence; not simply to operate 
safely but to prevail at the high-end of maritime conflict.
    Recognizing the inherent link between readiness and lethality, we 
continue to modernize our logistics capabilities to better refuel, 
rearm, resupply, revive, and repair operational forces. At sea, we are 
prioritizing the recapitalization of auxiliaries and sealift 
capabilities to sustain the Fleet's enduring global posture and support 
mobility of the Joint Force. PB-20 includes an initial $8 million 
research and development investment in the Common Hull Auxiliary Multi-
mission Platform (CHAMP) for concept design. Ashore, we recognize that 
readiness is an enabler for force projection; in addition to investing 
in our shipyards, PB-20 increases investment in facilities sustainment, 
restoration, and modernization (FSRM) to $3.1 billion (from 80 to 87 
percent of the sustainment requirement).
    Of course, ships, aircraft, and weapons are not, by themselves, 
sufficient to respond to today's complex challenges. The readiness of 
these platforms and systems depends on talented and well-trained 
Sailors, led by commanders of competence and character. Our Sailors are 
the glue that binds our Navy team together. This is our Polaris. It is 
also why we established the College of Leadership and Ethics at the 
U.S. Naval War College in April 2018. Just as we have done throughout 
our history, we will continue to develop and empower leaders who are 
driven to build winning teams.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The fiscal year 2020 budget continues our generational 
transformation of the Navy's manpower and personnel systems. We are 
investing $235 million in a modern cloud-based personnel and pay 
system, while creating an expanded assignment marketplace and 
increasing career flexibility. For example, we are exercising the 
authorities granted to us in the reform of the Defense Officer 
Personnel Management Act (DOPMA) to make better use of investments in 
training and increase career opportunities and flexibility for our 
officer corps. These initiatives leverage state-of-the art practices to 
put more control into the hands of our Sailors. This includes more 
transparency regarding their career options. The Sailor 2025 suite of 
programs will make today's burdensome and time-consuming process for 
executing orders-- from updating pay and benefits to finding new 
housing and moving household goods--as easy as scanning a Quick 
Response (QR) code on a smartphone. Not only will this make the 
frequent relocations associated with military service easier for 
Sailors and their families, it will minimize distractions so they can 
focus on warfighting.
    And we continue to tackle the recommendations listed in the 
Comprehensive Review (CR) and Strategic Readiness Review (SRR). PB-20 
assigns the highest funding priority to CR/SRR-related investments--
$346 million in fiscal year 2020 and $1.1 billion over the FYDP-- 
including construction of new Mariner Skills Training Program centers 
and simulators and programmatic commitments for the Next Generation 
Surface Search Radar. Additionally, we remain committed to assessing 
our ships and crews, understanding the impact of fatigue and other 
human factors, filling personnel gaps for ships on deployment or in 
sustainment, and dedicating time to maintain our forward-deployed 
Fleet. As of February 2019, 20 of the 111 recommendations remain to be 
adjudicated. While we are on track to begin implementation of these 
remaining items by the end of the fiscal year, we will continue to 
analyze the effectiveness of our new programs and iteratively improve 
them over the FYDP.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Finally, we remain committed to recruiting and retaining diverse 
shipmates. In a time when evolving artificial intelligence and machine 
learning are factoring into future military capabilities, our Sailors 
must bring creativity, innovation, and context to tactical and 
strategic decisions. This potent combination will make us more 
competitive and operationally effective. And it is the diversity of 
their backgrounds and viewpoints that will catalyze the speed and 
quality of decisions we need to outperform our adversaries.
                   continuing our budgetary momentum
    These realities highlight the importance of partnerships and a 
recognition that together we can do so much more. This past year's on-
time budget put our Navy on a steady course making best speed. Prior to 
last year, when the fiscal year 2019 National Defense Authorization Act 
(NDAA) was enacted on August 13, a defense authorization bill had not 
been enacted prior to the start of the fiscal year since fiscal year 
1997; the last time a defense appropriation was enacted by October 1 
was fiscal year 2009. This meant 9 years of continuing resolutions that 
averaged one-third of the fiscal year. This uncertain financial footing 
resulted in fluctuating toplines and interruptions to government 
operations and services.
    The Navy looks forward to working with the 116th Congress to 
continue the momentum developed in fiscal year 2019. Stable and 
predictable funding solidifies strategic planning, incentivizes our 
commercial partners, strengthens our industrial base, safeguards our 
Sailors, and bolsters the interests of your constituents. And most 
importantly, stable and predictable funding mitigates operational risk 
by maximizing our planning and execution time.
    With timely, stable, and predictable investments, the U.S. Navy 
will be bigger, better, and more ready to work every day--in every 
ocean--to set the conditions that allow Americans and all the citizens 
of the world to flourish and prosper.
         the navy's connection to american principles and power

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Navy has always maintained a strong connection to the 
flourishing and prosperity of the American people. President 
Washington's phrase--``everything honorable and glorious''-- hearkens 
to American values that are derived from the inalienable rights 
outlined in the Declaration of Independence: ``That among these are 
Life, Liberty, and the Pursuit of Happiness.''
    This last value has commonly been understood as the right to 
materially improve our circumstances. The Navy also maintains a deep 
and historic connection to America's economic strength, the engine that 
makes our country a global power. The Navy was founded to protect vital 
sea lanes like Gibraltar and combat piracy off the North African 
coast--a mission to safeguard free movement of trade and free access to 
markets that continues in earnest today.
    ``Honorable and glorious'' also characterizes the mission of the 
United States Navy and the selfless service of more than 600,000 
Sailors and civilians, and their families. The U.S. Navy is a 
definitive military force in world events but the Navy also connects 
with every other element of our national power. The Navy is the face of 
the nation and often the first point of contact between the United 
States and other peoples. U.S. Navy ships have shuttled American 
diplomats across all seven seas: think of the paddle-wheeled steam 
frigate USS Mississippi transporting Commodore Matthew Perry to Japan 
in the early 1850s; the Great White Fleet circumnavigating the globe at 
the turn of the Twentieth Century; and the USS Quincy (CA 71) carrying 
President Franklin D. Roosevelt to Malta in 1945. And our ships have 
hosted international events of the highest consequence that have shaped 
the global security environment, such as the Japanese surrender aboard 
the USS Missouri (BB 63), anchored in Tokyo Bay, which formally ended 
the Second World War. The Navy brings sovereign United States territory 
to the shores of other nations, fostering connections to extend 
American assistance to those who would be our friends and demonstrating 
resolve to those who may oppose us.
    And ingrained in every mariner is the notion that we will never 
sail past another mariner in distress. We will continue to provide 
humanitarian assistance and disaster relief to our fellow citizens and 
neighbors wherever and whenever they are in need.
                               conclusion
    This hearing comes at a critical time to both our Navy and our 
Nation. The challenges we face are varied and are growing more dynamic 
by the day. Let there be no doubt: America is a maritime Nation and a 
maritime power. Our way of life and our economic prosperity have always 
been linked to the sea. For 243 years--through war and peace, 
uncertainty and stability, turmoil and prosperity--the United States 
Navy has validated founding father Thomas Paine's maxim that ``a Navy 
when finished is worth more than it cost.''
    In the competitive environment we face now and in the future, we 
must increase naval power in a balanced approach to meet our national 
strategic goals. The President's Fiscal Year 2020 Budget ensures that 
the Navy and the Nation can continue to do everything honorable and 
glorious, as Washington intended.
    I am grateful to this committee and to your colleagues in the 
Congress for starting this important work, and we look forward to 
sailing alongside you to build and deliver the Navy the Nation Needs.

    Senator Shelby. General Neller.
STATEMENT OF GENERAL ROBERT B. NELLER, COMMANDANT, 
            UNITED STATES MARINE CORPS
    General Neller. Chairman Shelby, Senator Murray, 
distinguished members of the committee, I am here to testify 
today on the fiscal year 2020 budget and posture of your Marine 
Corps, and I thank you for that opportunity to be here today 
and to answer your questions.
    I know this committee, the Congress, and the American 
people have high expectations for their marines. As our 
Nation's expeditionary force in readiness, you expect us to be 
ready to operate forward with our Navy shipmates in the Contact 
and Blunt Layers of the global operating model, to assure our 
partners deter our rivals, and respond to crises across the 
range of military operations. And if we are unable to deter and 
we are called to fight, you expect us to win.
    As we hold this hearing today, approximately 40,000 marines 
along with many of our shipmates are forward-deployed or 
postured in more than 60 countries around the world, some of 
them in harm's way, all engaged, doing exactly what you would 
expect of them.
    Throughout our history, the Nation has called upon the 
marines to respond immediately to crises around the globe, 
either from the sea, from forward bases, or from home station. 
To meet your intent to be ready, to suppress or contain 
international disturbances short of a large-scale war, we 
strive to prevent war by assuring our allies and deterring 
rivals with ready, capable, and persistently present forces.
    Forward-postured Naval forces remain critical to that end, 
providing the Nation a significant operational advantage 
through their ability to maneuver, access, and physical 
presence around the globe.
    Supporting day-to-day operations through theater security 
cooperation, building partner capacity, doing humanitarian 
assistance and disaster relief, or supporting current 
contingencies requires your force to be present.
    We recognize the strategic environment is constantly 
changing, requiring adaptations to our organization, our 
training, our equipment, and our warfighting concepts in order 
to provide our Nation the lethal Naval expeditionary force it 
demands.
    Your Marine Corps remains committed to building the most 
ready, capable, and adaptable force the Nation can afford. This 
requires hard choices as we balance commitments to current 
operations, work to continue to increase our readiness, and 
pursue modernization efforts designed to increase our 
competitive advantages over our rivals, now and in the future.
    And thanks to your efforts in Congress to provide increased 
and on-time funding, you have made some of these choices far 
less difficult, and the rate of our readiness improvement and 
the pace of our ability to change has increased.
    The Secretary mentioned the situation at Camp Lejeune. 
Senator Murray also mentioned it. So I will defer those 
comments, and I will take your questions in regard to where we 
are with restoring Camp Lejeune.
    But despite all these challenges, the Marine Corps remains 
on the right path as we implement the National Defense 
Strategy. We continue to develop effective warfighting concepts 
and invest in what we believe are the right capabilities while 
experimenting ruthlessly to validate these choices.
    Most importantly to the success of our Corps, we continue 
to be able to recruit and train the most qualified men and 
women our Nation has to offer, men and women who are willing to 
raise their right hand, have a desire to wear their Eagle, 
Globe, and Anchor and ask to serve something greater than 
themselves and then represent the best of our Nation every day 
around the world.
    So your Navy-Marine Corps team remains our Nation's Naval 
expeditionary force in readiness, forward-deployed and 
postured, present and competing across the globe, and with 
Congress' continued support and commitment, we will ensure that 
if we must send our sons and daughters into harm's way, we will 
have every advantage our Nation can provide.
    Thank you, and I look forward to your questions.
    [The statement follows:]
              Prepared Statement General Robert B. Neller
               marines--ready, expeditionary, and lethal
    The purpose of your Marine Corps remains unchanged since mandated 
by the 82nd Congress--to be ready. Not just ready to go--but ready to 
go now, ready to respond and compete wherever sent, and if necessary--
ready to fight and win. This idea of a ``force-in-readiness,'' 
reaffirmed by the 114th Congress, requires a Marine Corps that is 
``most ready, when the Nation is least ready.'' As a naval service, 
Marines are soldiers of the sea ready to secure or protect national 
policy objectives by military force when peaceful means alone cannot. 
And if we must engage in the violence of battle to secure our 
interests, we stand ready for the violent struggle, and prepared to 
impose our will on our enemies. It is this idea of total readiness--a 
constant preparedness, expeditionary mindset, and aggressive 
warfighting philosophy--that remains the driving force behind your 
Marines today. Yet we recognize the strategic environment is changing, 
requiring adaptations to our organization, training, equipment, and 
warfighting concepts in order to rebuild our competitive advantage and 
provide our Nation the lethal, expeditionary naval force it demands.
    The Marine Corps is committed to building the most ready, lethal 
force the Nation can afford. Unfortunately, the testimony that follows 
is presently a conditional statement as the Marine Corps confronts the 
impacts of recent Hurricanes Florence and Michael in the fall of last 
year. Hurricane Florence was the wettest tropical storm ever recorded 
in the Carolinas, dropping 39 inches of water in less than one week. 
Just a few short weeks later we felt the impacts of Hurricane Michael, 
the strongest storm in terms of maximum sustained wind speed to hit the 
United States since Hurricane Andrew in 1992. The impact of these two 
disasters in terms of cost to the Marine Corps is estimated to be 
$3.7B, but their impacts go much deeper and the gravity of these 
unforeseen disasters may not be fully known to this committee:
  --3,000 military personnel displaced including 1,000 family members 
        living on base
  --North Carolina installations are home to II Marine Expeditionary 
        Force which comprises 1/3 of the combat power of the Marine 
        Corps
  --North Carolina installations are also home to Marine Corps Forces 
        Special Operations Command (MARSOC), Fleet Readiness Center--
        East, and the Center for Naval Aviation Technical Training
  --800 buildings across Marine Corps Base (MCB) Lejeune, Marine Corps 
        Air Station (MCAS) New River, and MCAS Cherry Point were 
        damaged or compromised
  --100 structures were damaged at Marine Corps Logistics Base Albany
  --Almost 4,000 of the 6,200 homes across these installations 
        sustained damage
    Your Marine Corps is feeling the immediate impacts of these storms 
through lost and delayed training time; delayed deployments and 
redeployments; and daily quality of life challenges. Many of our ranges 
and training areas remain degraded. Damaged infrastructure to include 
roads, railroad trestles, and beaches have degraded our strategic 
capacity to deploy. All of these present an unacceptable challenge to 
the Nation's expeditionary force in readiness who must remain ready at 
a moment's notice. From a force posture ``risk to force'' and ``risk to 
mission'' perspective, we assess our current risk to both as 
``moderate.'' Effective 1 June of this year however, we assess our risk 
to both moving to ``high'' as we enter the next hurricane season.
    Thanks to the hard work and support of the Office of the Secretary 
of Defense, Congress, and the Administration, the Marine Corps recently 
received $400 million of reprogrammed resources to immediately begin 
addressing our most pressing infrastructure needs. We continue to work 
tirelessly to address our remaining $449 million shortfall within 
fiscal year 2019, and $2.8B required over fiscal year 2020, fiscal year 
2021, and future plans to fully recover. We continue to make the 
decisions necessary in the short term to return our personnel, repair 
our facilities, and restore our readiness. Funding the remainder of 
this requirement internally, however, may jeopardize the readiness 
gains made over that last few years through the efforts of Congress and 
your Marine Corps. We must continue the hard work described in the 
remainder of this testimony to rebuild our readiness and modernize our 
Corps to maintain our competitive advantage against rising competitors.
Expeditionary
    Throughout our history, Marines have been called upon to respond 
immediately to crises around the globe either from the sea, forward 
bases, or home station. To meet Congress' mandate to be `` . . . ready 
to suppress or contain international disturbances short of large-scale 
war,'' we strive to prevent war by assuring our allies and deterring 
rivals with ready, capable, and persistently present expeditionary 
forces. Forward postured naval forces remain critical to that end, 
providing the Nation a significant operational advantage through 
maneuver and access. Supporting steady state operations through theater 
security cooperation (TSC); building partner capacity; supporting 
humanitarian assistance/disaster relief (HA/DR); and noncombatant 
evacuation operations (NEO); or supporting current global 
contingencies, requires your expeditionary force-in-readiness to be 
present.
    The 2018 National Defense Strategy (NDS) clearly requires forward-
deployed naval expeditionary forces that can compete, deter, and 
provide ``inside'' forces capable of denying adversary freedom of 
maneuver as part of our integrated naval defense-in-depth. 
``Expeditionary,'' however, is more than a simple definition contained 
within joint publications. Marines view the term expeditionary as a 
pervasive mindset that is fundamental to our character, and an idea 
that shapes all aspects of our organization, training, education, 
equipment, and employment. Marines must be able to deploy rapidly, 
leverage the sea as maneuver space, enter the objective area, 
accomplish a broad range of operations, sustain itself, withdraw 
quickly, and rapidly reconstitute while forward deployed to execute 
follow-on missions. The Marine Air Ground Task Force (MAGTF)--by design 
a tailorable, self-sustaining, and scalable expeditionary unit--
provides our Nation a combined arms force capable of exploiting 
advantages over an adversary. Equally important, the MAGTF provides a 
forward deployed dynamic force available now. Marines approach this 
expeditionary mindset holistically--from our training, capability 
development, employment in austere conditions, and Service culture. 
Although our warfighting concepts must be continually revised and our 
capabilities modernized to sustain our ability to respond when called, 
it is our expeditionary nature, forward presence as a naval force, and 
preparedness for the violence of combat that define our unique role in 
the Nation's defense.
Competition, Lethality, and Deterrence
    The strategic environment is complex, informationally and 
technologically charged, volatile, and dangerous. The proliferation of 
modern conventional weapons and social media capabilities to a broader 
range of state and non-state actors, along with the erosion of our 
competitive technological advantage in areas where we have long enjoyed 
relative superiority, is likely to continue as peer competitors attempt 
to contest our influence globally. Competition below the traditional 
level of armed conflict and global campaigns such as China's One Belt 
One Road initiative, create a wide range of strategic and operational 
challenges that underscore the need for a globally responsive naval 
force capable of providing an asymmetric maritime advantage.
    Threats posed by revisionist powers and rogue states require a 
change to how your Marine Corps is organized, trained, equipped, 
employed, and integrated with the Navy. We must become a more lethal, 
resilient, and capable competitor and deterrent. The Navy-Marine Corps 
team no longer relies on concepts and capabilities premised on 
uncontested sea control. We must establish a forward deployed defense-
in-depth, anchored on naval ``inside'' forces, capable of Expeditionary 
Advance Base Operations (EABO) in support of the naval campaign. Modern 
sensors and precision weapons with expanding ranges and lethality are 
redefining how we assess our posture and relative combat power. 
Advanced adversary defensive networks are forcing us to reconsider 
methods of assured access required to compete against rising peers 
within a contested maritime space. As naval ``inside'' forces, the 
Navy-Marine Corps team must develop complementary capabilities to 
compete, deter, and win in all domains and facilitate the maneuver and 
projection of Joint Force capabilities. Our warfighting contributions 
must help shape the strategic environment to prevent conflict--one of 
the original mandates of the 82nd Congress for a ``force-in-
readiness.''
    The Marine Corps assures allies and partners and competes globally 
every day within the Contact and Blunt Layers articulated in the NDS, 
in support of respective Fleet Commanders and Geographic Combatant 
Commands (GCC). Your Marine Corps maintains approximately one third of 
its operating forces, or roughly 39,500 Active and Reserve Component 
Marines, forward deployed and forward stationed. Amphibious Readiness 
Groups/Marine Expeditionary Units (ARG/MEUs), Special Purpose Marine 
Air Ground Task Force (SPMAGTFs), MARSOC, Marine Expeditionary Force 
Information Groups (MIGs), Task Force South West, and allocated forces 
are forward-deployed and forward-stationed to contest the malign 
behavior of our foes, improve interoperability with our allies and 
partners, and prepare to delay, degrade, and deny adversary aggression 
should deterrence fail and competition turn to armed conflict. And if 
our adversaries mistakenly choose to test our will, we must be capable 
of providing a combat credible force ready to absorb the initial blow; 
hold the line; contest their advance; facilitate sea control/denial; 
win the information operations fight; attrit adversary naval, land, and 
air forces; and fight until our allies, partners, and the Joint Force 
reinforces.
    At home, your Corps is preparing to contribute to the war-winning 
Joint Force should deterrence fail. We are preparing to respond to 
global contingencies against peer rivals in contested environments; to 
rapidly aggregate forces from across the globe to deliver capable mass 
to the fight; and prepared and ready to wage violence in all domains--
from degrading and penetrating anti-access area denial (A2/AD) 
networks--to assuring access and projecting power with command and 
control (C2), fires, maneuver, and logistics. Every Marine throughout 
the MAGTF is constantly preparing through training and exercises that 
approximate the conditions of war as much as possible, and conducting 
training that introduces friction in the form of uncertainty, stress, 
disorder, and opposing wills. At the institutional level, we are 
testing our concepts and developing new tactics, techniques, and 
procedures. At the unit level, we are focusing on our foundational core 
competencies, individual discipline, and continuing actions in order to 
develop the mindset and skills necessary to prevail in any future 
fight. Only through hard, demanding, and realistic preparation can we 
achieve total readiness.
    We must increase the lethality of our integrated naval forces in 
order to deter our adversaries; and if deterrence fails, to win. 
Deterrence requires a combat credible force that possesses lethal 
capabilities, at sufficient capacities, paired with innovative 
operational concepts in order to alter the decisionmaking choices of 
our adversaries. Lethality spans the Corps from the tactical to the 
operational levels of war, and from small unit formations to scalable 
MAGTFs. Ground formations must still locate, close with, and destroy 
the enemy by fire and maneuver, or to repel the enemy's assault by fire 
and close combat. The Marine Corps is committed to providing every 
lethal advantage available to our tactical warfighting formations to 
ensure overmatch against peer threats and improve the lethality of our 
close combat squads. No Marine should ever enter into a fair fight.
    At the MAGTF level, lethality provides the means by which we alter 
the decisionmaking choices of our adversaries. A lethal, integrated 
naval force that can deny adversary freedom of maneuver is paramount to 
this idea. That said, sea control is more challenging now than in past 
decades. Long-range detection and targeting methods possessed by 
adversaries, combined with extended ranges of their land-based anti-
ship missiles, is increasing the interaction between land and naval 
forces in the littorals, requiring the Marine Corps to further develop 
and integrate force capabilities in support of the Navy--``Green in 
support of Blue.'' While power projection and forward presence remain 
foundational to our naval force, we are developing new concepts and 
capabilities for assured access, sea control, and sea denial that 
include long-range precision strike, raids, Distributed Maritime 
Operations (DMO), Operations in the Information Environment (OIE), and 
EABO. The product of those efforts, through speed, lethality, and an 
asymmetric competitive advantage, is deterrence. Ships and aircraft 
acting within a networked fleet must contribute to the lethality of the 
fleet with the ability to protect themselves from air, surface, and 
sub-surface attack, while possessing organic ship-to-ship and ship-to-
shore strike weapons required by future naval campaigns. Current 
amphibious ships lack these capabilities, and therefore, must rely on 
support from other combatants to perform sea control and assured access 
missions.
    To increase the lethality and deterrent effect of our existing 
amphibious fleet, the naval force must upgrade C2 suites; introduce 
organic ship-to-ship and ship-to-shore precision strike weapons; 
integrate organic air defense; decrease ship signatures; and launch/
recover the MAGTF's growing fleet of unmanned aerial systems--together, 
a more cost-effective approach than seeking a replacement of existing 
platforms. An amphibious fleet so equipped is a force multiplier to the 
larger naval force. The Marine Corps, in support of the Navy, must 
shift from a focus on a near symmetric land-based enemy to an 
asymmetric view in which Marine forces, operating from expeditionary 
advanced bases, threaten enemy naval, land, air, and unmanned forces. 
Marines must be prepared to task organize in support of fleet 
operations in highly contested maritime environments; employing mobile, 
low-signature, operationally relevant, and survivable expeditionary 
forces to mitigate challenges created by adversary advantages in 
geographic location, weapons system range, and precision. These are the 
capabilities and concepts possessed by an integrated naval force that 
offer our adversaries a choice--a choice to de-escalate to a state of 
manageable competition, or a choice to escalate and face a lethal naval 
force at a time and place of our choosing.
Concepts and Experimentation
    Marines continue to innovate to build the 21st century MAGTF--a 
lethal, adaptive, and resilient Corps that executes combined arms as a 
means to conduct maneuver warfare across all domains. This 
transformation began in 2016 with the implementation of the Marine 
Corps Operating Concept (MOC). The MOC represents our institutional 
vision for how the Marine Corps will operate, fight, and win despite 
the challenges of the strategic environment, and like the larger 
institution, will continue to be revised as the character of naval 
warfare changes. The MOC provides the foundation and context for 
subordinate operating and functional concepts--like Littoral Operations 
in a Contested Environment (LOCE) and EABO--and it guides our analysis, 
wargaming, and experimentation. These concepts, and our associated 
thinking on warfighting, are naval concepts which complement broader 
visions and conclusions articulated in the Navy's DMO concept.
    Whereas the MOC, DMO, and EABO provide the concepts for how Marines 
will fight and prevail, it is through extensive experimentation and 
wargaming that we validate our force development choices, and inform 
our resourcing and programming strategies. Our experimentation and 
wargaming efforts focus on designing a lethal, agile, and resilient 
MAGTF optimized for the future that incorporates Marines capable of 
integrating cyber, OIE, artificial intelligence, and long range 
precision fires capabilities in support of the Navy. As a driver of 
innovation, our Marine Corps Warfighting Lab completed the first phase 
of our long-range experimentation plan called SEA DRAGON, and over the 
next 5 years will focus on MAGTF hybrid logistics, OIE, EABO, DMO, 
maritime fires, and maritime C2. Through these efforts, the Marine 
Corps continues to adapt and refine our capability development, force 
structure, and resourcing decisions that modernize the force.
                            our 2020 budget
    ``Competing with a Peer Threat'' is the theme of our PB20 
submission, and directly aligns with the Secretary of Defense's 
guidance to increase lethality, improve warfighting readiness, and 
achieve program balance. This year's budget of $45.9 billion builds on 
the momentum gained over the previous year and seeks to further adapt 
and modernize our Corps by focusing on three key budget priorities--
modernization, readiness, and manpower. Through programmatic reforms, 
divestiture of legacy systems, and key investments in manned/unmanned 
teaming and autonomous systems, we are transforming today's Marine 
Corps into the future force required by our Nation and building the 
most ready force our Nation can afford. To accomplish this goal, we 
require adequate, sustained, and predictable funding to properly plan 
for and resource a ready, capable, lethal force.
    The Marine Corps remains committed to fiscal transparency and 
responsible stewardship of our taxpayers' dollars. The results of Full 
Financial Statement Audits for fiscal years 2017 and 2018 generated 
efficiencies through improvements to financial processes, systems, 
internal controls, and accountability of equipment. The Marine Corps 
continues to remediate audit findings and remains focused on achieving 
a modified opinion by fiscal year 2020. Continued emphasis on executing 
corrective action plans, improving information systems, and better 
managing funds provided to us by the taxpayer demonstrates our 
commitment to achieve and sustain favorable audit opinions.
    Marine Corps business reforms identified more than $389 million in 
savings and cost avoidance in fiscal year 2020 to reinvest in 
modernization and warfighting readiness. When combined with reform 
efforts in fiscal year 2019, the cumulative reforms and divestitures 
over the past 2 years total $956 million. Examples of vetted and 
approved reform initiatives include:
  --Multi-Year Procurement for Aircraft
  --H-1 (Aviation) Program Procurement Savings
  --Infrastructure Reset
  --Enterprise Lifecycle Maintenance Program
  --Legacy Counter-Radio Controlled Improvised Explosive Device (CREW) 
        System Divestment
  --DoN Under-Execution Review
    Marine Corps business reforms enable us to make strategic choices 
in the divestiture of certain programs to reinvest our limited 
resources toward building a more modern, lethal, expeditionary force. 
We are focused on continuing business reforms in fiscal year 2020 that 
foster effective resource management, support audit readiness, and 
streamline the requirements and acquisition process.
Modernization
    Modernization remains critical to meeting the demands of a 
strategic environment marked by revisionist and revanchist powers, 
long-term strategic competition, and rogue regimes that have immediate 
access to advanced, lethal, and disruptive technologies. As part of a 
naval expeditionary force, what we desire to achieve is a Corps capable 
of denying freedom of maneuver to deter our adversaries, or when 
necessary, capable of exploiting, penetrating, and degrading advanced 
adversary defenses in all domains in support of Naval and Joint Force 
operations. Deterrence is no longer measured solely by the threat of 
violence. We require a force capable of operating and winning in the 
information environment before the physical fight ever begins. Should 
deterrence fail, we require a future force that can deny adversary 
freedom of action, impose costs, control key maritime terrain, shape 
the operational environment in support of integrated sea control and 
maritime power projection operations, and impose our will in all 
domains while under attack.
    In order to achieve the modern, lethal force required, we must 
experiment with new technologies available on the market, determining 
what will work best in the future operating environment, and then 
deliver those capabilities to the force quickly to mitigate the rapid 
rate of technological change. The Marine Corps Rapid Capabilities 
Office (MCRCO) makes this possible, seeking emergent and disruptive 
technologies to increase our lethality and resiliency. The MCRCO 
leverages fiscal year 2016 and fiscal year 2017 NDAA provisions and 
partnerships to accelerate the requirements development and definition 
process--with the consistent and steadfast support of Congress--we will 
continue to fund this office. We also embrace the idea of alternative 
acquisition pathways. We are using and seeing value in other 
transactions authority and intend to apply middle tier rapid fielding 
authority at the first appropriate opportunity as a solution to 
expedite modernization, where production is achievable within 5 years 
or less. Accelerated modernization is an essential part of the remedy 
to our long-term readiness problems and we must not allow ourselves to 
bury modernization efforts under cumbersome acquisition processes.
    Modernization investments represent roughly 30 percent, or $13.9B 
of the total PB20 budget submission, and are synchronized with Marine 
Corps Force 2025 (MCF 2025), the capability investment strategy which 
modernizes the force toward implementing MCF 2025, MOC, EABO, and the 
NDS. The following capability areas support building a 21st century 
MAGTF across the Active and Reserve components of the force, and are 
prioritized in the following manner:
  --Command and Control (C2) in a Degraded Environment: The Marine 
        Corps requires a sustainable, defendable, and resilient C2 
        network, integrated with Navy and Joint Force networks, which 
        allows for timely and persistent information exchange while 
        enhancing battlefield awareness to dispersed tactical units 
        across the MAGTF. Investments in Networking-on-the-Move (NOTM), 
        Fused Integrated Naval Network (FINN), Terrestrial Wideband 
        Transmission System (TWTS), MAGTF Integrated Command and 
        Control (MIC2), and MAGTF Digital Interoperability upgrades 
        provide significantly increased capabilities associated with 
        maneuver and fires across the battlespace. Additionally, in a 
        contested information environment, artificial boundaries 
        between a ``tactical'' network and a ``garrison'' network 
        erode; the Marines at the tactical edge will need seamless 
        connections to the Marines supporting them further back from 
        the front line. We have to modernize our enterprise network and 
        move our data stores to the cloud so that Marines can access 
        the information they need any time, in any place. The Next 
        Generation Enterprise Network (NGEN) program and future 
        programs like it are critical to supporting the warfighter.
  --Long Range and Precision Fires: The modern day battlefield requires 
        forces capable of conducting lethal strikes at range, in depth, 
        and with precision from air, land, and sea. Marine Corps 
        investments include 5th Generation F-35B/C aircraft, maritime 
        Group 5 MAGTF Expeditionary UAS (MUX) with precision weapons, 
        Guided Multiple Launch Rocket System (GMLRS) Alternate Warhead 
        (AW), Ground-Based Anti-Ship Missiles (GB-ASM) as well as 
        ground vehicles and Long Range Unmanned Surface Vessels (LRUSV) 
        armed with loitering munitions enabled by Low Cost UAV Swarming 
        Technology (LOCUST).
  --Operations in the Information Environment (OIE): Adversary use of 
        ``information'' to manipulate facts, mobilize mass perceptions, 
        and contest our ability to C2 forces undermines our traditional 
        military advantages. We cannot count on uncontested access to 
        the electromagnetic spectrum any more than we can count on 
        uncontested freedom of maneuver on the sea. Establishment of 
        the Deputy Commandant for Information (DC I) provides 
        headquarters advocacy while the development of the MEF 
        Information Group (MIG) enables the planning and integrating of 
        OIE with traditional military activities to enhance lethality 
        and our competitive advantage.
  --Air Defense: Forward deployed/stationed Marines are vulnerable to 
        attacks in ways we have not considered for decades. Most lack 
        protection and sufficient resilience from long-range kinetic 
        attacks that jeopardize our ability to prepare, project, and 
        sustain combat power. Expeditionary forces operating away from 
        bases in a distributed/dispersed manner provide some degree of 
        resilience through distributed mass and reduced signatures. 
        Investments in Medium-Range Air Defense Systems, Counter-Cruise 
        Missile, squad-level Counter-UAS, swarming technologies 
        operating in a networked manner, and the Ground/Air Task 
        Oriented Radar improve the resilience of our posture and our 
        air defense capabilities.
  --Protected Mobility/Enhanced Maneuver: To distribute and concentrate 
        forces and effects, we must be able to maneuver to positions of 
        advantage, and engage and defeat threat forces in all 
        geographic, topographic, and climatic environments from 
        littoral waterways to urban areas. The Corps prioritizes 
        modernization and investments in three key vehicle replacement 
        programs required to improve mobility and increase force 
        protection: Amphibious Combat Vehicle (ACV), Joint Light 
        Tactical Vehicle (JLTV), and the Armored Reconnaissance Vehicle 
        (ARV). To improve dismounted mobility, we are investing in 
        lighter, better fitting body armor. Aviation investment 
        priorities include procurement and Block 4 capability upgrades 
        for F-35B/C; and the CH-53K which will provide an exponential 
        leap in vertical heavy lift capability.
  --Logistics: In a distributed and contested environment, logistics 
        takes on greater significance as a key enabling function 
        requiring global logistics awareness, diversifying 
        distribution, improving sustainment, and optimizing 
        installations to support sustained operations. This requires 
        innovative methods, the ability to leverage new technologies, 
        and integration with Navy, Joint, and Coalition forces. Science 
        and Technology (S&T) efforts in Additive Manufacturing (AM) 
        drove the procurement of 160 3D printers, with more than 125 
        ground and 83 NAVAIR-approved aviation parts; immediately 
        improving readiness and lethality. Additional investments in 
        developing enhanced logistics C2 systems, bulk fuel 
        transportation and storage, unmanned logistics systems--to 
        include quadrotor cargo delivery systems and littoral 
        connectors--are paving the way in Next Generation Logistics 
        (NexLog) capabilities.
    It is equally important that the Marine Corps provide every lethal, 
modern advantage available to our tactical warfighting formations to 
make sure our infantry is deadly and protected to the maximum extent 
possible. Aligned with the Secretary of Defense's Close Combat 
Lethality Task Force (CCLTF) initiative, the Marine Corps continues to 
invest heavily in its close combat formation capabilities, including--
enhanced combat helmet; binocular night vision devices; M-27 Infantry 
Automatic Rifle; M320 grenade launcher; M38 Squad Designated Marksman 
Rifle; and Javelin anti-tank missile. Additional investments include 
Squad unmanned aerial systems; MAGTF electronic warfare; Joint Battle 
Command Platform; Handheld C2; target hand-off system; adaptive threat 
force augmentation; future integration training environment; pattern of 
life automated behavior development, and warfighter augmented reality. 
These capability investments, combined with demanding unit training and 
Service-level force-on-force exercises, provide the path forward to 
ensuring close combat superiority against peer competitors.
Readiness
    The Marine Corps is committed to building the most ready force the 
Nation can afford. Readiness, however, is the product of two metrics. 
The first is the ability of the force to execute its mission with ready 
people, ready equipment, and the right training. The second compares 
the force against potential adversaries, the importance of which grows 
dramatically in an environment of rising peers and global competition. 
If our near-term readiness levels are high and our units are ready, 
then by the first metric we are ready. If, however, that force is 
outranged or outpaced by potential adversary capabilities, then by the 
second metric we are not. This requires an additional long-term view of 
readiness through capability modernization, as discussed in the 
preceding section of this statement. As a Service, we will take a 
deliberate approach to continue the positive trends in our overall 
readiness while simultaneously balancing the need to modernize our 
current force, satisfying existing GCC demands, and building the force 
required by the strategic environment to remain relevant in the future. 
Thanks to your efforts in Congress to provide increased funding, you 
have made the choices the Marine Corps has to make less difficult. Our 
PB20 budget provides $14.3 billion, or approximately 31 percent of our 
total submission towards near-term readiness.
            Aviation
    While readiness concerns exist across the MAGTF, our most acute 
readiness issues are found in aviation units. Recent increases in 
funding enabled the Marine Corps to simultaneously invest in both 
readiness and modernization, adding capacity to the flight lines by 
fully funding readiness enabler accounts, depot and Defense Logistics 
Agency (DLA), spares, training, and people. The Marine Corps has been 
able to accelerate aviation readiness recovery efforts along four lines 
of effort:
    1.  Depot Readiness Initiative: resources to accomplish certain 
        unit level maintenance while an aircraft is being re-worked at 
        the depot, which means aircraft that return from the depot to a 
        squadron are ready to fly almost immediately.
    2.  Non-Mission Capable Maintenance (NMCM): the qualified 
        maintenance Marines and needed supporting resources (engineers, 
        support equipment, etc.) are available to fix aircraft without 
        delay.
    3.  Non-Mission Capable Supply (NMCS): all parts are available when 
        needed to prevent extended aircraft down times awaiting parts.
    4.  In-Service Repair: higher-level maintenance needed at the 
        squadron is properly resourced to perform these repairs without 
        delay, avoiding excessive aircraft down time.
    Although much work remains to achieve our aviation readiness 
recovery goals, we continue to see significant gains realized along 
these lines of effort: depot throughput met Service goals, NMCM rates 
have decreased, NMCS rates have dropped, and in-service repairs have 
reached our Service goal. In short, these gains mean that Marines are 
able to keep existing aircraft in a mission capable (MC) status for 
longer periods, affording aircrew more flying hours and training time. 
In addition to our dedication to fully funding aviation readiness 
accounts, other readiness recovery initiatives include the CH-53E Reset 
program, Depot Readiness Initiative, MV-22 Readiness Program, and 
talent retention efforts aimed at retaining experienced maintainers in 
operational squadrons. Leading indicators of readiness improvements 
resulting from these efforts include: an increase in overall flight 
hours, an increase in average monthly flight time for our aircrew, an 
increase in MC rates of our aircraft, and an improvement of our 
aggregate aviation T-Rating. These gains are a direct result of funding 
provided in the fiscal year 2017 and fiscal year 2018 defense 
appropriations bills, which allowed investments in readiness enabler 
accounts at maximum executable levels. These investments are now 
realizing significant results. Should funding decrease in fiscal year 
2020 or beyond--aviation readiness will also likely decrease.
    The Secretary of Defense released guidance to the Services 
directing accelerated readiness recovery of tactical aviation (TACAIR) 
to achieve 80 percent mission capable rates by the end of fiscal year 
2019. The Marine Corps is taking action to achieve this goal along five 
lines of effort. The Marine Corps is working towards this goal by 
increasing the number of aircraft available and operating within 
aircraft and maintenance capacity levels. Our investments in fiscal 
year 2017, fiscal year 2018, and fiscal year 2019 will produce ready 
aircraft from our depots, $1.6B in spares from Navy Supply, and $16 
million in additional consumables from DLA. Additional goals from 
industry partners include accelerated completion of aircraft 
modifications and retrofits, accelerated depot repair capability, and 
shifting maintenance to the appropriate levels. Successful 
implementation of these efforts will ensure we meet the 80 percent goal 
and sustain it in the future.
            Ground Equipment
    Ground equipment readiness rates continue to show significant gains 
after years of focused effort to reset our equipment. As of 1 October 
2018, the Marine Corps completed reset of 99 percent of our ground 
equipment programs and returned 72 percent of our ground equipment to 
the operating forces. The operational readiness of key Principal End 
Items (PEI) remains high, and we project to complete our ground 
equipment reset efforts in third quarter fiscal year 2019. High 
operational readiness rates of key PEIs, however, mask certain 
underlying readiness issues. Units preparing to deploy are still 
experiencing shortfalls in equipment to train for core mission tasks as 
we support global equipment sourcing for forward deployed units such as 
Special Purpose MAGTFs. Equipping requirements for these rotational 
forces are disproportionally high due to their unique mission sets, 
placing high demand on low density equipment that approaches or exceeds 
availability. The result is risk in equipment availability to respond 
to contingencies and training for non-deployed units. We are addressing 
these issues through aggressive acquisition and redistribution actions.
            Amphibious Fleet
    Use of the sea as maneuver space remains as vital today as any time 
in our history. The Joint Force must maintain access to, and the 
ability to maneuver through the global commons, assure access, compete 
in the maritime domain, and defeat any competitor attempting to deny 
our freedom of action. To adequately accomplish these tasks, the naval 
force must be distributable, resilient, and tailorable while being 
employed in sufficient scale and for ample duration. The amphibious 
fleet allows the naval force to do three basic things:
  --Conduct steady state operations around the world, including TSC, 
        building partner capacity, HA/DR, and NEO.
  --Execute a global cost imposition strategy if we have to fight.
  --Project and sustain the force in a contested environment.
    Due to existing shortfalls and maintenance issues within our 
amphibious ship capacity, the naval force currently struggles to 
satisfy these basic requirements--an issue that will only grow worse 
over time if not properly addressed. The operational availability of 
the existing amphibious fleet is insufficient to meet global demands 
and negatively impacts the unit training necessary to recover readiness 
for major combat operations. Consequently, the strategic risk to the 
mission and the larger Joint Force is increased.
    The Navy and Marine Corps are currently operating below the minimum 
amphibious shipping requirement detailed in the 2016 Force Structure 
Assessment and 30-year shipbuilding plan. The stated requirement of 38 
amphibious warships is the minimum number required to fulfill our Title 
10 obligation. Resourcing to a lower number puts contingency response 
timelines and the Joint Force at risk. Yet, amphibious readiness is 
more than the simple product of capacity and availability; it requires 
an amphibious fleet with the right capabilities to remain survivable, 
resilient, and lethal in a contested environment. Today's naval 
campaigns still demand an amphibious fleet capable of conducting raids, 
demonstrations, assaults, withdrawals, and support to other operations 
(TSC, HA/DR, NEO, etc.) in both permissive and non-permissive 
environments. The naval force must be able to maneuver; gain temporary 
lodgments to establish expeditionary advanced bases from which Marines 
hold adversary naval, land, and air forces at risk; and then withdrawal 
quickly as the naval campaign advances. Our amphibious fleet lacks the 
ability to protect itself from air, surface, sub-surface, cyber, and 
information attack; and absent organic ship- to-ship and ship-to-shore 
strike weapons, must rely on support from other combatants to perform 
sea control and assured access missions. To increase the lethality and 
readiness of our amphibious fleet, the naval force must:
  --Upgrade C2 suites, introduce organic ship-to-ship and ship-to-shore 
        precision strike weapons, organic air defense, and decrease 
        ship signatures to become less targetable.
  --Modernize the manned and unmanned surface connector fleet that, 
        when combined with our aerial connectors, enable the naval 
        force to establish a web of sensor, strike, decoy, and 
        sustainment locations based on land and sea that will 
        complicate the strategic and operational decisionmaking of our 
        most advanced rivals.
  --Address modernization in our prepositioning program to ensure 
        persistent forward positioning of our critical equipment and 
        sustainment supplies in a manner that is scalable, flexible, 
        expeditionary, and survivable in a contested environment; and 
        that will further enable our naval expeditionary inside forces 
        to persist inside the enemy's weapons engagement zone (WEZ).
  --Continue to explore innovative ways to employ alternative platforms 
        for amphibious and maritime operations in more permissive 
        environments in order to compensate for the shortfall of 
        amphibious warships and provide more global coverage in the 
        most resource-appropriate manner.
  --Continue to develop and employ Naval Task Force elements consisting 
        of multiple ship types for optimal lethality and force 
        protection; including possible development of more functional 
        and operationally suitable naval vessels and craft to expand 
        the competitive space and create an asymmetric maritime 
        advantage globally.
            Deployment-to-Dwell
    The rate by which Marines deploy largely depends upon what unit 
they are assigned to and the operational demand for those units. The 
majority of Marine units experience a deployment-to- dwell (D2D) ratio 
that is challenging; we confront this daily. While these demands are 
clear and unmistakable evidence of the continued relevance of Marines, 
this tempo is difficult to sustain as it limits our time to train to 
our full naval mission sets. Our goal is to return to a 1:3 D2D force, 
which would allow us time to train for the high-end fight and achieve 
balance for our Marines and their families at home.
    There are three types of Marines in our Corps: those who are 
deployed, those getting ready to deploy, and those who just returned 
from deployment. PB20 supports an 186,200 Active and 38,500 Reserve 
component end-strength force, maintaining an overall 1:2 D2D ratio. 
Operating at a 1:2 D2D ratio, although challenging, is a conscious, 
short-term decision to balance modernization, meet current demand, and 
simultaneously recover our readiness. We owe our Marines and their 
families the necessary time to reset and train for the next deployment 
or contingency. For many decades prior to the attacks of September 
2001, Marines in the operating forces benefited from a 1:3 D2D ratio. 
The Marines that were not deployed had time to prepare, time to train, 
and were ready to reinforce their fellow Marines if a major contingency 
happened. A return to a 1:3 D2D would require a substantive increase in 
manpower, or decrease in operational requirements--we do not seek a 
significant increase in end-strength in this year's budget and we 
continue to experience high operational requirements. Although we 
manage the risks associated with a 1:2 D2D in the short-term, our long-
term goal is to return to a 1:3 D2D force.
            Infrastructure
    The Marine Corps previously accepted risk in facilities funding to 
protect near-term readiness and service-level training. Taking risk in 
the facilities sustainment, restoration and modernization, and military 
construction programs resulted in the degradation of our 
infrastructure, which in turn increases lifecycle costs. We must ensure 
our infrastructure, both home and abroad, is resilient against attacks, 
and long-range precision strikes while modernizing to support future 
capability integration and training facilities needed to hone our 
warfighting skills. Our Infrastructure Reset Strategy must be a 
priority--we must improve infrastructure lifecycle management and 
ensure investments are aligned with Marine Corps capability-based 
requirements to support our warfighting mission and contribute directly 
to current and future force readiness. The state of our facilities is 
the single most important investment to support four critical force 
enabling functions our installations provide:
  --Housing for our Marines and their families
  --Deployment platforms from which our expeditionary forces fight and 
        win our Nation's battles
  --Training facilities required for our MAGTFs to train and hone their 
        combat readiness
  --An organic industrial base for depot-level maintenance, storage, 
        and prepositioning of war reserve equipment to maximize 
        readiness and sustain combat operations
    As leaders we have fallen short of our full obligation to our 
Marines and their families with respect to privatized military housing; 
we are correcting this shortfall. The Marine Corps has instituted a 
voluntary Marine Housing Outreach program aimed at every Marine and 
Sailor residing in government quarters, privatized military housing, or 
an off-base civilian rental property. This outreach program is designed 
to raise our awareness of the Marines' living conditions to ensure it 
is safe, secure, and environmentally healthy; identify maintenance or 
safety issues affecting the residence, determine any actions taken to 
date to remedy them, and determine how the chain of command can assist 
in the resolution process; and ensure our Marines and their families 
are aware of and understand the support processes and programs 
available. In concert with the Department of the Navy, the Marine Corps 
is also reviewing the reporting mechanisms and oversight procedures 
that govern the way privatized military housing discrepancies are 
reported, remediated, and verified through our Public-Private Venture 
partners. The Marine Corps is committed to our Marines and families, to 
improving the military housing offered aboard our installations, and to 
ensuring unit commanders are personally involved in advocating for the 
wellbeing of the Marines they serve.
    The Marine Corps' Infrastructure Reset Strategy ensures every 
dollar is targeted and spent on the highest priorities at the lowest 
total lifecycle costs, optimizing investment over the long-term to 
support our warfighting mission and align investment with our strategic 
priorities. These prioritized investments align with NDS guidance to 
increase lethality by supporting new capabilities and platforms; 
modernizing inadequate and obsolete facilities; relocating and 
consolidating forces; and improving quality of life. fiscal year 2020 
Military Construction (MILCON) and Facilities Sustainment, Restoration 
and Modernization (FSRM) accounts support:
  --Guam relocation investments: Barracks, central fuel station, and 
        central issue facility
  --MCF 2025 initiatives: Consolidated Sensitive Compartmented 
        Information Facility (SCIF) for I MEF MIG and 10th Marines 
        HIMARs complex
  --New platform investment: F-35B/C hangar, apron, landing pads, and 
        training simulator; ACV maintenance facility; and CH-53K cargo 
        loading trainer
  --Training: Wargaming Center at MCB Quantico
  --Quality of Life: Barracks replacement at MCB Hawaii and mess hall 
        replacement at MCB Camp Pendleton
  --Recapitalization and replacement of inadequate facilities
Manpower
    Our people--Marines, civilian Marines, and families--are our 
institutional center of gravity, and remain fundamental to our ability 
to Make Marines and Win Battles. Maintaining the most ready, lethal 
Marine Corps possible requires talented and dedicated people. Our PB20 
budget provides $16.1 billion towards manpower accounts, approximately 
35 percent of our total submission, to continue implementing MCF 2025. 
The strategic environment our Nation faces requires a more experienced, 
better trained, and more capable Corps. It requires more than just new 
equipment and technologies, it requires the right force structure and 
Marines with the right skills to effectively operate. Modernization 
priorities require a complementary element of force structure changes 
to ensure we have the right people, with the right skills, for the 
deployment and employment of new capabilities and to ensure the future 
force is compatible and mutually supportive. Our goal is to provide a 
more mature, experienced force to leverage individual skill and 
professional talent with emerging technology through select force 
structure changes that recruits, trains, educates, and sustains the 
most lethal force possible.
    To achieve our goals, our actions focus personnel growth in the 
right areas. Our PB20 end strength plans for an 186,200 Active and 
38,500 Reserve component force. This limited growth of 100 Marines is 
targeted in specialized fields such as MARSOC and several specialties 
encompassed by OIE: intelligence, electronic warfare, and cyberspace 
operations. Equally important, our manpower efforts are addressing the 
need for more experienced and better trained leaders within our 
infantry formations to ensure the superiority of our close combat 
formations. In order to optimize selection of the most talented 
infantry squad leaders, we have increased the pool of infantry 
Sergeants by 330 Marines through realignment efforts within our 
internal structure. Everything we do must focus on making Marines 
better, more resilient, lethal, and capable of outpacing our 
adversaries.
    Central to our role in providing a lethal force is recruiting the 
most qualified men and women within our Nation who are willing to raise 
their hand, affirm an oath, and earn the Eagle, Globe, and Anchor. We 
must ensure that we recruit the right people, devoted to upholding the 
values of Honor, Courage, and Commitment. Our new Marines must be 
provided the highest level of training that not only prepares them for 
the rigors of combat, but also successfully transforms and sustains 
them in their career paths. As such, a fourth phase has been added to 
Recruit Training. This fourth phase focuses on mentorship and leader-
led instruction to better prepare new Marines for transition to the 
operating forces.
    Education and training is continuous for Marines. We must ensure we 
train to fight, and educate to win. New technologies require smarter, 
more mentally agile Marines capable of exercising sound judgment and 
decisionmaking in uncertain and challenging situations. Professional 
Military Education remains essential in developing leaders with the 
analytical and critical thinking skills required to adapt in ever 
changing environments. To increase the capabilities of our leaders, the 
Marine Corps has developed the College of Enlisted Military Education 
(CEME), creating a pathway for enlisted leaders to increase skill and 
proficiency through continuing education. We have revamped our PME 
process, adding new PME courses, and enhancing academic rigor to grow 
our force with the intellectual skills and capabilities necessary for 
the future.
    As a Marines, we must hold ourselves to the highest standards of 
personal conduct and ensure all Marines and family members are treated 
with dignity and respect. This requires us to take an introspective 
look at our culture to ensure the long-term success of our efforts. To 
demonstrate our commitment to strengthening our culture, we created the 
Talent Management Oversight Directorate (TMOD). This office supports 
the Assistant Commandant in his role as the Talent Management Officer 
of the Marine Corps, and addresses all personnel and cultural issues 
impacting the Corps' ability to invest in and leverage a diversely 
skilled and talented force. The TMOD's mission is to ensure compliance 
with all objectives, policies, and directives that supports the Corps' 
efforts to recruit, promote, and retain the best talent the Nation has 
to offer. Focused on mission readiness, the TMOD helps ensure we 
maintain an organization where all members are valued based on their 
individual excellence and commitment to warfighting. Treating all 
Marines and their families with dignity and respect, as well as 
fostering a culture of inclusion throughout the service, is central to 
our core values.
    Taking care of Marines and their families is a key element of 
overall readiness and combat effectiveness. The adage ``we recruit 
Marines, we retain families'' remains as true today as ever. Our 
comprehensive system of services, to include Sexual Assault Prevention 
and Response; Suicide Prevention; Personal and Professional 
Development; Drug and Alcohol Abuse Counseling/Prevention; Business and 
Recreation Services; and Spouse Employment; seeks to create the 
holistic fitness and readiness of our Marines and families--body, mind, 
spirit, and social. In addition, our Wounded Warrior Regiment continues 
to execute our Recovery Coordination Program to ``keep faith'' with 
those who have incurred life changing impairments in service to our 
Nation.
    Our civilian workforce has the leanest civilian-to-military ratio 
of all the military services, at a current ratio of one civilian 
employee to every ten Marines. Approximately 95 percent of our 
appropriated funded civilians work outside the Washington, DC beltway 
at 57 bases, stations, depots, and installations around the world. 
Sixty-nine percent are veterans who have chosen to continue to serve 
our Nation; of those, 18 percent are disabled veterans. Civilian 
Marines perform vital functions at our bases and stations, and are 
integral to the daily operations and overall capability of the Marine 
Corps. Challenges with recruitment and retention--notably burdens like 
the threat of sequestration, possible furloughs, antiquated hiring 
processes, and limited pay increases--inhibit our ability to retain top 
talent. Thanks to the hard work of Congress in passing a civilian pay 
raise this year, we continue to fund these critical members of our 
team.
                               conclusion
    The Marine Corps serves as a naval expeditionary ``inside'' force 
that is most ready, when the Nation is least ready. We seek a constant 
state of readiness--lethal, forward postured, assuring allies, 
deterring adversaries, capable of absorbing the initial blow, and 
holding the line--and if required, prepared to fight and impose our 
will on the enemy. We are an integrated naval force--transiting the 
oceans, aggregating at sea, fighting at sea, and coming from the sea. 
We are organized, trained, and equipped to operate across the range of 
military operations, in every domain, and thrive in uncertainty--
facilitating assured access operations, sea control operations, or 
maritime security in support of the fleets. We are self-sustaining for 
pre-determined lengths of time, and capable of quickly reconstituting 
for follow-on tasking globally to support dynamic force employment. We 
continuously live ``with our sea-bags packed'' and remain the most 
lethal, credible combat forces available.
    However, despite notable improvement in readiness during the past 2 
years, the preceding 17 years of war have perilously degraded our 
overall capability and capacity, as those of our adversaries have 
increased. We must increase the lethality of our ``inside'' combat 
credible forces in order to compete with our threats, deter our 
adversaries, assure our allies, and if necessary--prevail in any fight. 
As the force at the forward edge, the force first to make contact and 
hold--we require the most modern, technologically advanced, capable 
Marine Corps our resourcing will allow. To achieve this end, the Marine 
Corps must evolve from today's ``1.0'' force capable of addressing our 
current warfighting needs; to a near-term ``1.1'' modernized force that 
leverages select, existing platforms to achieve new warfighting 
concepts; to a ``2.0'' future force with revolutionized capabilities 
and the ability to execute new warfighting concepts.
    The Marine Corps is increasing lethality and evolving our force 
through prioritized investment in modernization, readiness, and 
manpower. This evolution is necessary to ensure we maintain current 
operational readiness and address whatever contingencies may arise 
today, and anticipate what our force of tomorrow must look like to be 
capable of addressing unforeseen threats. But we need Congress' 
continued support. To accomplish this goal, adequate, sustained, and 
predictable funding is required to properly plan for and resource a 
ready, capable force. Our Marine Corps will ensure there will never be 
a fair fight . . . our Nation is not afforded that luxury. We will 
continue to innovate and build a 21st century Marine Corps--a lethal, 
adaptive, and resilient Corps that can dominate all domains, that is 
ready to fight tonight--and win.

    Senator Shelby. Thank you.

                        EFFECT OF SEQUESTRATION

    Mr. Secretary, the budget caps, as you well know, created 
by sequestration remain in effect for the fiscal years 2020 and 
2021. What impact would a return to sequestration have on the 
Navy and Marine Corps in your judgment?
    Secretary Spencer. Mr. Chairman, the efforts that you all 
have put forward for the RAA (Rapid Acquisition Authority) in 
2017, for the fiscal year 2018-2019 funding have been 
absolutely tremendous. If we revert back to that, it is 
absolutely devastating.
    Senator Shelby. It would be draconian, would it not?
    Secretary Spencer. Draconian.
    Senator Shelby. Thank you.

                        HURRICAN DAMAGE AT BASES

    The committee is aware of the significant destruction by 
Hurricane Florence at Camp Lejeune and the Marine Corps Air 
Stations at New River and Cherry Point, North Carolina. We have 
seen your estimates that the recovery and rebuild cost is at 
least $3.7 billion.
    I will direct this to you, General Neller. You stated that 
the inability to pay for hurricane damage is negatively 
impacting the Marine Corps' readiness. I could see that. Could 
you explain to the committee this morning how the hurricane 
damage is impacting the marines' ability to train and to deploy 
and provide an update on the strategy to fund repairs, if you 
can?
    General Neller. Well, Chairman, we are used to and pride 
ourselves on being able to do with what we have.
    There was a generational storm that came ashore in eastern 
North Carolina last September. The winds fortunately died down. 
So when it hit the coast, it was only about a 100-mile-an-hour 
storm, but it really was not the wind. It was the rain, and 
then sat there for 3 days in rain. So you are not going to see 
the damage at Lejeune, Cherry Point, and New River like you 
would see at Tyndall or down in the Panhandle where you had a 
very Category 1 storm come across.
    So we have many old buildings down there, many of them 40, 
50, 60, and 70 years old. The advantage of new construction, I 
can tell you that all the new buildings--and there are many due 
to the generosity and the funding of the Congress--they 
suffered almost no damage at all because they were built to a 
higher standard.
    So we have a number of buildings, and we prioritized them. 
We could repair them, but we believe that the actual--the best 
way to fix this is to--if they need to be re-sited out of a 
flood plain, to put them in a better location and to build them 
to a higher standard so they can survive a super storm.
    Hopefully, we will not get one this summer, but we have 
received $400 million of reprogramming from the Congress, and 
we appreciate the efforts of the Congress, Department of 
Defense, and the administration to do that.
    As the Secretary said, we could spend just under another 
$500 million this fiscal year effectively, but if we rebuilt 
the whole thing, the total bill remaining, less the $400 
million--and there is $200 million for Marine Logistics Base 
Albany--it is just a little over $3 billion.
    So we are back in business. We are operating, but we are 
operating in a degraded status, and we are hoping that--
obviously, hope is not a course of action. If we had another 
storm this year, there would be buildings that would probably 
become un-occupiable, but we are down there doing the best we 
can. But we need to fix these. We need to fix the 
infrastructure down there.
    Senator Shelby. Thank you very much.

                   SUPPORT FOR ADVANCED TECHNOLOGIES

    The 2018 National Defense Strategy identified several 
technology areas where the U.S. must make investments to 
maintain a technological edge over our adversaries, to include 
hypersonics, directed energy, as well as advance computing, 
including quantum, artificial intelligence, and of course, 
cybersecurity.
    In order to advance in these technological areas, the Navy 
and Marine Corps needs to attract and retain people with highly 
valued skills in our economy. Secretary Spencer, could you 
describe the programs in the budget that support these 
technologies?
    And I will direct the questions to the General and Admiral 
Richardson. Do the Navy and Marines have sufficient people with 
the right skills to excel in these advanced technologies? I 
know that is a big question.
    Secretary Spencer. It is a big question. Let me provide the 
Title 10 aspect of it, and then I will defer to both the 
Commandant and the CNO (Chief of Naval Operations).
    Due to the authorities that Congress has provided us, we do 
have much more flexibility now to attract, acquire, and retain 
those resources we need in the areas that you are talking 
about, specifically human capital in those areas.
    As we are competing with the corporate world outside, as I 
brought up earlier, we are also going to probably need some 
latitudes such as salary caps, et cetera, on how to attract the 
people that we need, specifically when it comes to cyber, 
quantum computing, et cetera, because we are going to be 
competing with an open competitive market, and we need to have 
access to that.
    But, fundamentally, we will be coming before you I think 
again in 2020 fleshing out some more insight into it, but we do 
have what we need right now.
    And I will defer to both the Commandant and the CNO as far 
as head count.
    Senator Shelby. Admiral Richardson, do you have anything to 
add?
    Admiral Richardson. Sir, with respect to the challenge of 
bringing in qualified people, I would say that we talk about 
great power of competition, but the competition per talent is 
about as competitive as any contest that I am in right now.
    Senator Shelby. The fact that the economy is a little past 
being good, is that a challenge to you?
    Admiral Richardson. That makes it more challenging. A 
recovering economy, rising salaries, all of that makes it more 
challenging for us.
    We are holding our own right now, Senator. I think that has 
a lot to do with young people of America wanting to do 
something noble.
    Senator Shelby. Wanting to do the service.
    Admiral Richardson. Yes, sir.
    And we are also mindful that when we bring them in, we have 
got to have 21st century human resource systems, and we have 
been working very closely with this committee to really 
transform our systems. So a combination of all that and just 
the terrific operations that the Navy has been involved in----
    Senator Shelby. You are holding your own now, but it is a 
challenge in the future?
    Admiral Richardson. It is a great challenge. Yes, sir.
    Senator Shelby. Thank you.
    General.
    General Neller. I would agree with the CNO. We are making 
it, but as we bring on these more sophisticated technological 
capabilities, I think it is going to be more difficult. I think 
we are going to have to figure out how to leverage the civilian 
side. I think we are going to have to figure out how to have 
auxiliary forces or whatever that can come in and assist us and 
have to get them through the security clearance process, which 
is another wicket that delays some people because if they 
wanted to do it, we want to put them to work, and we have to 
sometimes wait for that.
    So we are competing, whether it be for pilots or aircrew or 
engineers or cybersecurity people or people that operate in a 
high level of communications. We compete against the civilian 
side for that same capability, and having additional resources 
allows us to pay bonuses or incentive pays or things like that, 
which can kind of bridge the gap between what they might make 
on the outside.
    But I agree with the CNO. The one thing that really keeps 
folks around is they have good equipment, they have good 
facilities, they know their families are taken care of, and the 
opportunity to do something important, to serve their Nation.
    Senator Shelby. Thank you.

                    FORCE STRUCTURE ASSESSMENT, 2020

    In December of 2016, the Navy completed a force structure 
assessment, Mr. Secretary, to determine the correct balance and 
mix of platforms needed to address the Navy's responsibilities. 
You are very familiar with this.
    Secretary Spencer. Yes, Chairman.
    Senator Shelby. That report concluded that the Navy 
requires a minimum of 355 ships, and that this committee has 
strongly supported the Navy's shipbuilding requirements, as you 
know.
    The 2020 budget request proposes to accelerate shipbuilding 
to reach 355 ships sooner, but the Navy is also conducting 
another force structure assessment to conclude later this year, 
it is my understanding. What was the need to be conducted? Why 
the new assessment, and what do you expect will be the most 
likely outcome? Can you address that, Mr. Secretary?
    Secretary Spencer. Again, I will give you the overview. 
Yes. When we shifted--when the National Defense Strategy 
shifted to the great power competition, we took it upon 
ourselves to take the assessment.
    I will also let the CNO chime in here, but I can tell you 
that a bigger Navy is where we need to go. We are not going to 
shy away from 355. That, I can tell you.
    Senator Shelby. Admiral Richardson.
    Admiral Richardson. I would just pile on to what the 
Secretary said.
    The security environment has changed a great deal. Our 
strategy has responded to that. Technology has changed a great 
deal, as you alluded in your earlier question.
    Senator Shelby. All of it, did it not?
    Admiral Richardson. All of it has changed, and so it needed 
to be reassessed. I think this is what you expect us to do.
    But all of those, and particularly the security 
environment, has only become more complex, and so I would 
expect that our force structure assessment will recognize that 
increased challenge.
    Senator Shelby. Shipbuilding, as you well know, all of you, 
requires a healthy and robust industrial base for all of the 
vessels, from the big shipyards to the lower tier vendors. Is 
our industrial base right now adequately prepared to support 
the Navy's future shipbuilding, or do we have a challenge there 
too?
    Secretary Spencer. I will step in here first, Chairman, 
because we have been watching this very closely and done a 
couple of reviews.
    I would say that the industrial base is adequate.
    Senator Shelby. But could it get better?
    Secretary Spencer. It needs to get better.
    We have seen some great actions in the shipyards, both 
private and public, in the education area.
    Senator Shelby. We cannot let it erode anymore.
    Secretary Spencer. We cannot, Mr. Chairman.
    Senator Shelby. So that is where you are today, but you 
want it more robust.
    Secretary Spencer. We need to put some more muscle on it.
    Senator Shelby. I have some more questions that I would 
like to submit for the record, without objection.
    Senator Murray.

                    CHILD DEVELOPMENT/CARE RESOURCES

    Senator Murray. Thank you very much, Mr. Chairman.
    Secretary Spencer, in January, I had the opportunity to 
tour the Bangor Child Development Center at Naval Base Kitsap 
in my home State of Washington. The level of care provided and 
the quality of the teachers was really impressive, but the 
facilities were among the worst I have ever seen. And I am a 
former preschool teacher. I have seen a lot of facilities. They 
were horrendous.
    Not only was it poorly designed, but it was out of date. 
And the waiting list at that installation is over 600. Our 
military families deserve better than this, and upgrading the 
facility has to be a priority.
    Can you tell me when the Navy plans to build a child care 
facility at Bangor for these families?
    Secretary Spencer. Senator, let me approach at 30,000 feet 
and then drill down.
    One of the things that did take me by surprising arriving 
here in this position 22 months ago was the fact that we had 
used infrastructure as a bill payer. We were funding somewhere 
around the neighborhood of 70 percent of infrastructure. We 
cannot go forward with that.
    Infrastructure is in fact readiness, and it is the key to 
readiness.
    You bring up an example right now: child care. I can draw a 
line from child care right to readiness because it is about the 
family and support.
    As you have seen in the budget, we are topping up 
infrastructure. I do not know exactly when Bangor is looking to 
receive a new building. I will get back to you on that.
    Senator Murray. Would you? I would appreciate that.
    Secretary Spencer. I would.
    Senator Murray. Okay. Thank you for that.
    For Admiral and General, I understand the demand for Navy 
child care worldwide exceeds the capacity of over 8,000 spaces. 
Long wait lists, as you just mentioned, mean that our sailors 
and marines are regularly forced to make tough choices about 
child care.
    I saw communities trying to figure out how they could 
support it, and they do not have the money. People bring in 
families from elsewhere.
    Worst of all, I was talking to servicemembers who were 
deciding to leave their service because the kids were not 
getting taken care of.
    So this is really a critical issue, and, General, let me 
start with you. Can you tell me do you think child care is, as 
the Secretary just said, a readiness and retention issue?
    General Neller. I agree 100 percent, Senator. This issue 
and a lot of other issues come up, but our issue, I am not sure 
that we have the--and, again, we are all part of the same team, 
and we have marines that live on Naval bases, and we have 
sailors that live on Marine bases. So it is not just the 
facilities and the capacity. It is also getting enough 
practitioners and people that are certified and trained and 
turnover and kind of the nature of the life.
    So it is a more complicated problem than even what we have 
discussed here.
    Senator Murray. True.
    General Neller. But it is clearly a readiness issue and a 
retention issue.
    Senator Murray. Admiral.
    Admiral Richardson. I see it just the same.
    I was just up in Washington State. My wife and I were both 
there. She visited the child care facilities, shares your 
impression. We are on track to reconstitute that facility 
there.
    And I also share your impression that the quality of the 
people there, the care providers, is really good. They want to 
do a terrific job, and we are ready to.
    And as Secretary Spencer says, we recruit the sailor, but 
we retain the family. So we have got to solve this.
    Senator Murray. Is there a plan on child care, Mr. 
Secretary?
    Secretary Spencer. Senator, we are looking at--this is a 
front-and-center issue, and we are looking at every solution we 
can: public, private, ourselves.
    As you know, this is a national issue also.
    Senator Murray. Yes, it is.
    Secretary Spencer. And we are on it. I mean----
    Senator Murray. I just have to tell you, if I was a sailor 
and I was leaving my kids at that Bangor facility, I would be 
worried every day I was deployed, and we just cannot have that.
    Secretary Spencer. I agree.
    Senator Murray. Okay. Well, I am going to keep pursuing 
this. I think it is a critical readiness issue.

                         NAVAL STATION EVERETT

    Let me move on. Secretary Spencer, I was really 
disappointed that the Navy decided not to return the USS Nimitz 
to the Naval Station Everett, despite we got repeated promises 
from the Navy.
    It is a strategically located departure port. You were just 
there. It is a critical national security asset, and it is a 
point of pride for that community. So whether it means adding 
more destroyers or other ships or perhaps one day returning a 
carrier there, it is really essential that the Navy remain 
committed to this base and using its full capacity, and I 
wanted to ask you how you see the Navy using this critically 
important base in the future.
    Secretary Spencer. Senator, you are preaching to the choir 
when it comes to Everett, having been up there twice, but most 
recently, I believe sitting down with 20 constituents from the 
community, talking about the fact that an aircraft carrier 
would not come back, but then benefits that might come from 
this in making it as a center of excellence for the DDGs 
(Guided Missile Destroyer) we have up there.
    We added one, if I am not mistaken, and there might be 
another one coming that way. If we could enhance the ability to 
have maintenance performed there, deeper maintenance in 
Everett, and make it truly a center of excellence, it would be 
a win-win for both the Navy and Everett.

                              P-3 SQUADRON

    Senator Murray. Okay. I will pursue that with you.
    Just really quickly, Admiral Richardson, this year's budget 
increased the requirement for P-8A aircraft, but it did not 
include funding for additional aircraft. Part of that increased 
requirement is to upgrade the aircraft of the Navy Reserve 
squadron that operates the aging P-3 air fleet at Naval Air 
Station Whidbey Island. That performs an essential capability, 
but without upgrading their aircraft, I understand the squadron 
will be decommissioned by 2023.
    I wanted to ask you, does the Navy have a plan to upgrade 
the squadron's aircraft in the near term?
    Admiral Richardson. Yes, that is part of the discussion. We 
are going to move all to P-8s. The P-3 is going to be 
sunsetted, and so it is just really a matter of time, Senator.
    Senator Murray. Okay. Thank you.
    Admiral Richardson. Yes, ma'am.
    Senator Murray. Thank you, Mr. Chairman.
    Senator Shelby. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Secretary Spencer, let me begin by saying that I look 
forward to welcoming you in a couple of days as you visit the 
Portsmouth Naval Shipyard in Kittery, Maine, with both the 
Maine and New Hampshire delegations, and then go on to deliver 
the commencement address at Maine Maritime Academy. Both the 
shipyard and the academy are very excited about your visit.
    Admiral Richardson, I want to thank you for your service. I 
know you are a native of the great State of Maine, and I cannot 
imagine that you would want to retire anywhere but the great 
State of Maine and hope that we will see you up there often.
    General Neller, you may not be from the great State of 
Maine, but I know that you have done an extraordinary job, and 
it is a good place to retire as well. So I just thought I would 
put in my pitch.

                AMERICAN NAVAL PRESENCE IN THE ATLANTIC

    Admiral Richardson, we frequently discuss the Navy's role 
in the Pacific, but its presence in other parts of the world, 
namely in the North Atlantic and the Mediterranean, is also 
vitally important to the security of the United States and our 
allies in the region, particularly with Russia increasing its 
aggressive actions.
    And I know from CODELs that I have taken to that part of 
the world that there is great interest in having more of a 
Naval presence there.
    Indeed, in a recent story in a military publication, the 
head of European Command says that he needs an additional two 
destroyers in his area of responsibility.
    Based on the increased operations in the Mediterranean as 
well as Russian maritime activity in the Baltics and in the 
Atlantic, do you believe that we have a sufficient number of 
ships in the Atlantic fleet?
    Admiral Richardson. There is always a strategic balance 
that needs to be struck. It is a continuing conversation 
because the strategic environment is changing.
    But what we have seen--and we can show you the numbers--is 
a steadily rising commitment to Naval power in the European 
theater.
    So, as was noted earlier today, two Carrier Strike Groups 
operating in the Mediterranean, we spend a lot more Carrier 
Strike Group time in the Mediterranean, also working with our 
allies there, so this is also operated with the French carrier 
Charles de Gaulle.
    We sent the Truman Carrier Strike Group north of the Arctic 
Circle up into the North Atlantic for the first time since 1991 
and relearned a lot of lessons up there.
    We have been doing more theater ASW (Anti-Submarine 
Warfare) in the North Atlantic in response to the Russian 
undersea threat, and so we have seen an increasing commitment 
to operations and the threat scenario in the Atlantic.
    Senator Collins. And, Mr. Secretary, just following up on 
the Chairman's question, I assume that issues like this will be 
part of your new fleet architectural assessment, or I guess we 
now call it a ``force structure assessment,'' that you will 
look at those kinds of issues.
    Secretary Spencer. Most definitely, Senator.
    Senator Collins. Thank you.

                NEW LARGE SURFACE COMBATANTS TRANSITION

    Mr. Secretary, last year at this hearing, we discussed the 
Navy's plans for the next generation of surface combatants. The 
Navy has moved ahead very quickly with those plans since last 
year with procurement of a new lead ship now scheduled for 
fiscal year 2025, which is just a couple of years after the end 
of the current multiyear procurement contract for the DDG-51 
Flight IIIs.
    Many of us in Congress, I will say, expected that we would 
see a subsequent multiyear contract for the Flight IIIs.
    Given the challenges that lead ships often present in terms 
of initial budgeting and planning as well as our past 
experience of transitioning to the DDG-1000 when we ended up 
only building three, the last of which was dedicated just this 
past weekend, and then back to the 51s after buying none for 4 
years, I do want to express some concerns about starting down 
the path to a new hull until the requirements have been 
thoroughly identified and validated, and industry has had the 
opportunity to help the Navy determine what truly is 
achievable.
    As everyone has said, stability is so important to 
maintaining that proven dual-source surface combatant 
industrial base. I would be interested in hearing more of your 
thoughts on how budgeting and planning for the next generation 
of large surface combatants will address that need to ensure 
stability and predictability in the industrial base.
    Secretary Spencer. Most definitely, Senator. I think one of 
the things--and we have been talking about it--is the stability 
of the industrial base.
    I want to say that certainly does not mean that the coffers 
of the Navy are wide open just for that purpose. We are going 
to make sure that we are getting the best value for our dollar, 
but we must weigh the stability of the industrial base at all 
times and its health.
    If I was to look at an intermediate step we are taking with 
the frigate, it is a fascinating exercise in that we are 
looking at proven hull design. We really are going to industry 
and saying, ``What do you have that we can adapt and adopt with 
minimal cycles of change?'' And that we are going to have quite 
a robust competition with five hulls being put forward.
    What we learn from that I think is also going to transition 
to the large surface combatant, and we will do this on a 
budgeting manner that will take into account the health of the 
industry to make sure that we do not find ourselves in a 
gapping mode.
    Senator Collins. Thank you.
    Admiral Richardson. If I could just pile on to that a 
little bit----
    Senator Collins. Yes.
    Admiral Richardson [continuing]. Just speaking for the 
requirements. One of the things that we are doing differently--
and we did this with frigate as well--is to bring industry into 
the discussion of the requirements, so that we are not----
    Senator Collins. That is critical.
    Admiral Richardson [continuing]. Coming off with something 
that will just be impossible to invent and then build and then 
integrate.
    So by virtue of doing that with the frigate and also the 
unmanned tanker, it has proven itself so that we have much more 
confidence in both cost and schedule, even of the lead ship, 
learning lessons from the past.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Let me begin by thanking Admiral Richardson and General 
Neller for their extraordinary service, their integrity, their 
professionalism, and their insights that they have provided not 
only to this committee, but particularly to the Armed Services 
Committee. Thank you very much, gentlemen, for your service. 
The Navy and the Marine Corps thanks you also.

                       BUDGET FOR COLUMBIA CLASS

    Secretary Spencer and Admiral Richardson, let me focus for 
a moment on the Columbia class. As Admiral Richardson commented 
in his opening remarks, this is the number one priority to 
maintain strategic deterrence. We have got to get those ships 
in the water. I think 2039 is----
    Admiral Richardson. 2031, sir.
    Senator Reed. To 2031. I am giving you more time than you 
got.
    The GAO (Government Accountability Office) issued a report 
on April 8th, and they stated, ``Despite some of the positive 
steps that the program has taken to avoid the mistakes of past 
programs, the Columbia-class program's cost estimate--when 
combined with an aggressive schedule, no-cost margin, and 
unyielding requirements--is more likely than not to be 
insufficient for a program of this size.''
    With that report, are you anticipating asking for an 
increased authorization, not in this year's NDAA (National 
Defense Authorization Act), but in the following years, Mr. 
Secretary?
    Secretary Spencer. Senator, we are set on our budgeting 
requirements, as we need them right now, and authorities.
    I will tell you, as you have said, let me reiterate that 
the Columbia-class submarine program is our number one 
acquisition program.
    As you know, that industry is an industry unto itself. So 
the Virginia-class program, which is our most successful 
program in the Navy, is hip to it.
    As we speak, in the next 2 weeks, we are sitting down to do 
a finite drill down of not only the program itself, but the 
underlying supply chain that is involved with both of those 
programs to ensure that we do have a handle on this and we are 
extracting margin when we can and performance where we can.
    The report is correct. We do not have a lot of margin, and 
this is right in front of us right now. But we plan to manage 
this through appropriately.
    Senator Reed. Thank you.
    We created a National Sea-Based Deterrence Fund to help 
create efficiencies and effectiveness in the Columbia-class 
program. Are you still exploring ways that you can use those 
funds to accelerate and in this case to stay on schedule, not 
to accelerate?
    Secretary Spencer. That is a great tool that has allowed us 
flexibility to be where we are, and we hope to use it to 
actually create some margins where we can.

                          VIRGINIA CLASS MODEL

    Senator Reed. Mr. Secretary, you mentioned the Virginia 
class. You have requested three Virginia-class submarines to be 
authorized and appropriated, but one of them is without the 
Virginia payload module.
    Either Admiral Richardson or yourself, why would we go 
ahead and complicate an already complicated program by sort of 
doing two steps forward and one step back, in a sense?
    Admiral Richardson. Sir, I think it is not so much two 
steps forward and one step back. Really, the submarine base--I 
know you are very well read on this--is operating pretty close 
to its limits, to the question that was asked earlier, and so 
it is really just a matter of making sure the capacity is 
matching the program and dovetailing that Virginia payload 
module and just one, one submarine slower.
    Senator Reed. As the Secretary indicated, there is a 
Columbia and a Virginia class because there is only basically 
two shipyards that are working together. They are kind of at 
the hip, linked at the hip, and if we complicate the Virginia-
class program by doing something like, ``Well, we have been 
building the new modules. Now we are going to go back to the 
old model,'' I think that adds more uncertainty not just to the 
Virginia program, but also to the Columbia program, 
potentially. So I would leave that for your consideration.
    Admiral Richardson. Yes, sir.

                      AUTONOMOUS SHIPS AND VESSELS

    Senator Reed. We are talking about a 355-ship Navy, and we 
are talking about the future. What is your best guess at the 
moment about how many of those ships will be autonomous in 10 
years?
    Admiral Richardson. I will be happy to take that, sir. 
There is a big investment in our 2020 budget request for 
unmanned vehicles of all types: airborne, surface vessels, and 
undersea.
    A lot of that is in research and development lines because 
a lot of those questions that you have are the questions that 
we have, and so we are going to need to explore these, but we 
are going to need to explore them with some urgency because 
this is a fast moving thing, and we do not want to be the 
second Navy on the water to exploit unmanned autonomous 
technologies.
    But there is a lot of questions that go with that in terms 
of what their capabilities will be, weapons employment, the 
network that will keep them tied in, and so that is why we are 
exploring.
    Senator Reed. I concur. I think not only in terms of just 
combat power, but as the deterrent effect, if we can send ships 
without personnel into places and the other folks cannot, they 
will think twice.

                    CAMP SHORABAK AND GENERAL NELLER

    Just, if I may, a final comment, General Neller, I had the 
privilege of going out to Camp Shorabak in Helmand Province and 
visit with five Marine reservists from Rhode Island. So your 
work is being felt, and your leadership is being felt at that 
level. Very impressive and very inspiring.
    General Neller. Thank you, sir.
    Senator Shelby. Senator Moran.
    Senator Moran. Chairman Shelby, thank you.
    General Neller and Admiral Richardson, first, I want to 
join my colleagues in thanking you both for your service, 
tremendous, impeccable service to our Country. I extend my 
congratulations and best wishes to you, to you and your family 
upon your retirements.
    General Neller, you have an impressive 44 years of service 
to our Nation. I think that sets a record for the Marine Corps. 
I again wish you well.
    The first time we met, you spent a lot of time talking 
about your tomatoes, and I hope they now get your attention in 
this stage of your life.
    Admiral Richardson, you and I were together on a forum 
panel at the Reagan Defense Forum several years ago, and I want 
to remind you and thank you for assisting me and calling a 
young Kansan, Dawson Podlena from Topeka, and we congratulated 
him on his nomination by me and his acceptance by the Naval 
Academy. I am not sure he knew what the chief was at the time, 
but I assume he now knows the significance of your notifying 
him of his acceptance to the Naval Academy.
    I am proud of those folks we get to nominate, and I know 
they will serve the Country well.
    Mr. Secretary, you gave me a great honor, the opportunity 
to be in Florida and to help dedicate, to preside over the 
commissioning of the USS Wichita in January. I was reluctant, 
not knowing what I might say. It was a great ceremony and 
instilled in me, reminded me of the great patriotism and 
service to our Country by you and those who serve in the Navy. 
And it was a great day to recognize Wichita, Kansas, the Keeper 
of the Plains, and the Navy honored the USS Wichita, now the 
Keeper of the Seas. Again, thank you for that great 
opportunity.

                       THE NAVY AND WICHITA STATE

    Speaking of Wichita, Mr. Secretary, we are an aerospace 
manufacturing capital, and engineering expertise abounds in 
Wichita, Kansas, known as the Air Capital of the World. You and 
I have had several conversations about the talent, particularly 
at Wichita State University, to support fleet readiness in the 
Navy and the Marine Corps. The university is the number one 
industry--funded university for aerospace research and 
development in the Country.
    Your F-18 fleet has been characterized as the backbone of 
the Navy. You have taken steps to address unacceptably low 
readiness rates and maintenance of that fleet.
    This time last year, I think 74 percent of the Marine 
Corps' F-18s were not ready for combat, but I understand that 
mission-capable rates have improved. And maintenance remains a 
top priority.
    I am pleased that one way the Marine Corps is tackling this 
issue is partnering with Wichita State.
    I would ask you, Mr. Secretary, can you describe the 
partnership with Wichita State University? But how will the 
Navy and the Marine Corps benefit from this private-sector 
assistance?
    Secretary Spencer. Senator, it is interesting you bring 
that up because I actually use the Wichita State University as 
a venue to really present how we are doing things differently 
in the Navy.
    Through the DOD (Department of Defense) Strategic 
Capabilities Office, which we call the ``SCO office,'' Marine 
Corps is working with Wichita State in a program called 
``Paladin,'' where it is primarily--the frontrunner is data 
analytics to do predictive analytics. And what I mean by that 
is studying the wear, the tear of parts so that we can 
predetermine through data analysis what parts will be needed, 
and we have them ready in the bin. It sounds simple. It really 
is cutting-edge technology, working with the university there.
    We're also working with the university on the whole concept 
of a digital twin for the F-18, this is a model where we do not 
have to physically destruct anything anymore. We create the 
actual airframe in a digital environment, putting stresses on 
it, and with the algorithms, we know from past histories, we 
can stress out and find out where limits are in certain areas 
of the plane.
    And then the automatic robotic scanning and drilling, at 
the end of the day, we still assemble aircraft. It is still a 
science but a lot of art, and the ability to put the hole in 
the right place, to put it simply, is very important.
    So three areas that we are working with Wichita State on, 
10 years ago probably not traditional, now this is the way we 
want to think and work with our academic institutions.
    Senator Moran. Thank you, Mr. Secretary for that.
    A couple years ago, I would not have understood much of 
what you just said, and now I do. It is the future. It is the 
way that we can sustain and improve our readiness.

                                 CH-53K

    Let me turn to General Neller. The CH-53K King Stallion, I 
would guess that you would agree with me that it is a most 
capable heavy-lift helicopter in the world. The program of 
record for the CH-53K is 200 aircraft during the delivery.
    And during a delivery event in Wichita last June at Spirit 
AeroSystems, I recognized the start of low-rate production was 
at that point. The Marine Corps officer highlighted that 
helicopter's capabilities, and he said that the helicopters 
will support marines who are not even born yet. That is very 
pleasing to me.
    General, first, do you agree that the CH-53K will add value 
to the Marine Corps; and then, second, do you believe that 
additional CH-53Ks in the fiscal year 2020 would help ensure 
the aircraft remain affordable and also drive readiness to help 
replace the current fleet?
    General Neller. Senator, there is no doubt that we still 
have a requirement for the capabilities that this aircraft is 
going to give us, but based on the test and where we are in the 
test and to put more money in the program as of yet, I think 
there is a number of engineering things that have to be fixed. 
So we have been able to get--reprogram some money through 
Congress' support so we can sort through some of these 
engineering things.
    So once those are done--and I am confident they will be 
done--I think we will be in a better position to talk about 
increasing the production.
    So we have a handshake agreement, and I will defer to the 
Secretary on this. We have a handshake agreement with the 
vendor to provide a certain number of aircraft this year, and I 
think we are in a good place. But this is all contingent upon 
them fixing some of these engineering issues they have, and 
they are making good progress.
    So until they do that, I would be--I am somewhat reluctant 
to say we should add any more into the fiscal year 2020 budget.
    Senator Moran. Do you have a timeframe for what good 
progress means?
    General Neller. Every month, we are checking on this.
    Senator Moran. Okay.
    General Neller. So we have a punch list with them of 
things, and we are going through it. And so by the end of this 
fiscal year, we hope that they are going to be back on plane 
where they are with tests. So some of the stuff is, I think, 
easier than others, but I think the Secretary and Mr. Geurts, 
who works for him, have got the vendor to get a little more of 
their own personal skin in the game, if you will, to be 
incentivized to fix what needs to be fixed on this airplane.
    And I will defer to the Secretary if he wants to add 
anything.
    Secretary Spencer. Senator, if I could just add a little 
more color here, this is a key Marine Corps acquisition 
platform. Bringing what the requirements of this aircraft are 
to life is game changing, three times the lift of what we have 
now in the ECOS.
    But it has to be balanced with cost, and to be very frank 
with you on the development of this, it has been on my radar 
since arrival. The Commandant did touch on it. Shall I say we 
realigned our partnership with the vendor. We are now true 
partners. We are sharing risk, and we will share reward 
together.
    We put together a schedule that has gating events for the 
reprogrammed money, so we do have the ability to see what is 
being knocked down, what is being checked off, and we will work 
the resources that we have on a progress path in that regard. 
This is a key focus.
    Senator Moran. Thank you both.
    Senator Shelby. Senator Baldwin.
    Senator Baldwin. Thank you, Mr. Chairman.

           STATE OF MANUFACTURING AND INDUSTRIAL BASE IN U.S.

    So, Secretary Spencer, the DOD report assessing the 
strength of the manufacturing and defense industrial base from 
last fall expressed serious concerns, and I quote, ``Currently, 
the industrial base faces an unprecedented set of challenges, 
decline of critical markets and suppliers, unintended 
consequences of U.S. Government acquisition behavior, 
aggressive industrial policies of competitor nations, and the 
loss of vital skills in the domestic workforce.'' And it sounds 
like based on previous questions that you share those concerns; 
is that true?
    Secretary Spencer. Most definitely.
    Senator Baldwin. Okay. We ceded much of our commercial 
shipbuilding industrial base to foreign competitors and 
governments back in the 1980s, which is why we have laws that 
protect U.S. shipbuilders from unfair foreign competition.
    We also have a law that critical components on sealift 
ships must be manufactured in the U.S., but as you know, that 
does not apply to ships that are procedure through the SCN 
(Shipbuilding and Conversion, Navy) account. Do you believe 
that our suppliers are, thus, disadvantaged against foreign 
suppliers, and are there specific areas that concern you the 
most?
    Secretary Spencer. Senator, you have hit on obviously the 
highlights of that report, which you asked me, and I will say 
it again. Those are all of tremendous concern, to be very frank 
with you, because we all focus on weapons, whether they be 
bullets, whether they be F-35s coming off a production line, 
but it is all that is involved in supporting that production 
line that is equally, if not more, important because if the 
components are not there, we cannot build it.
    That being said, there are two things to look at. One that 
is the key driver, to answer your question about foreign 
competition or for parts, are we at economic capacity? If we 
are at economic capacity, I would like to open the ability for 
foreign parts because I need the parts in general.
    If we are not at foreign capacity, where we still have 
capacity, we should be working with our industrial base to 
ensure that we are taking advantage of that capacity. Again, I 
am going for the best value but yet the most efficient and 
effective product for us.
    Senator Baldwin. And do you believe that we are at economic 
capacity?
    Secretary Spencer. It depends upon, Senator, which area we 
are looking at.
    Senator Baldwin. The component.
    Secretary Spencer. Yes.
    Senator Baldwin. All right. Obviously, if we become reliant 
on foreign sources, we risk our ability to sustain and support 
those systems, and I would argue even submit ourselves to 
cybersecurity risks and the uncertainty of a foreign supply 
chain.
    So if there are concerns about sustaining critical sources 
for components, then should the Navy's acquisition plans ensure 
that we do not unfairly disadvantage U.S. suppliers?
    Secretary Spencer. Most definitely.
    Senator Baldwin. Last year at this very hearing, you stated 
that, ``setting the conditions for an enduring defense 
industrial base was one of the Navy's top priorities, and that 
growing the fleet to 355 would require a strong and integrated 
relationship with private-sector partners, prime contractors, 
and suppliers.''
    I completely agree with those sentiments, Mr. Secretary, 
and I hope that we can work together to ensure that our U.S. 
industrial base and supply chain are made stronger and more 
resilient over time because it is not only about the health of 
the industrial base. It is good for the U.S. economy, but it is 
also critical to our national security.
    Secretary Spencer. You have my commitment there, Senator.
    Senator Baldwin. Thank you.

                      VETERAN SUICIDE, AND THE VA

    I want to join in the sentiments of my colleagues in 
thanking you, General Neller, for your service, and I have a 
couple of questions or comments for you as you look towards 
your retirement.
    Yesterday I had the opportunity to be in a hearing with 
Secretary Wilkie in which we discussed the issue of veteran 
suicide, and it was noted at our hearing that of the 20 
veterans who die by suicide each day, 14 of them are not in 
contact with the VA (Department of Veterans Affairs).
    I recognize the efforts that DOD has undertaken itself with 
combatting suicide, but I am fearful that we are not doing 
enough during transition to highlight the benefits of the VA, 
and especially for marines who may not have visible or physical 
injuries and who may not want to enroll at separation.
    So, General, I know that once a marine always a marine. So 
I want to work with all the services and the VA and my 
colleagues in the Congress to reverse this trend of marines 
choosing not to utilize the quality care available from the VA, 
but I wonder what recommendations you have to get more marines 
into the VHA system or to increase enrollment among eligible 
separated marines.
    General Neller. Senator, I am confident--and I will go back 
and check, but when every marine is required to go through a 
transition assistance program----
    Senator Baldwin. Right.
    General Neller [continuing]. Before departing the service, 
whether they are completing their initial enlistment or they 
are anywhere, even to retirement, and so once you do that, you 
register. And then the VA sends you, as I am starting to get--
you get emails from the VA about this program or that program.
    So, at some point, though, it becomes the responsibility of 
the individual that they are going to have to take advantage or 
acknowledge that these things take place.
    So I think all the service chiefs and all the senior 
enlisted, where everybody is aware of the issue of suicide, 
whether it be within the active force, the reserve force, or 
the retired, the retired or the former servicemembers, I know 
talking to a lot of people that have already gotten out, most 
units, they stay in touch with each other. They connect with 
each other on social media. They help each other. They check on 
each other. It is just kind of the difficulty of this whole 
issue that the Nation is dealing with, with suicide, because I 
have talked to a lot of people. When somebody that they have 
been in touch with, trying to help, trying to work with, trying 
to support, and they still end up making that decision, it is 
pretty devastating.
    One thing we have done is try to get units to have more 
reunions. Once you are in a unit, that unit has a heritage, has 
a legacy, goes back maybe to World War II, or it is a ship, and 
there is association. Whether it is Marine Corps League or the 
Veterans for Foreign Wars or American Legion, all these groups 
are out there trying to reach out, particularly to the younger 
veterans to try to get them involved.
    So I think all of them are working on it. I think you can 
help just by continuing to raise the issue and talk about it. 
When you go back to your home State and talk to Navy League, 
Marine Corps League, all the different service organizations 
and ask them how are they doing with engaging with the newer 
veterans, because there is going to be a new generation--there 
is a lot of these folks, the Vietnam guys are even starting to 
get up in the years, and so my question to them, what are you 
doing to replenish your membership? So I think that is how you 
could really help us and just continue to raise the issue and 
talk to folks about taking advantage of many of the programs 
that are out there to help them.
    Senator Baldwin. Thank you.
    Senator Shelby. Thank you.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman, and thank you all 
for being here.
    I just came off a trip with the Chairman where we were able 
to see the U.S. Indo-Pacific Command Area up close and 
personal. We got some great briefings and really just some 
really good examples of the good job that you and your sister 
forces are doing in that part of the world to keep not only our 
country safe, but our allies, so again a big pat on the back 
for that.
    I also, like Senator Moran, had the opportunity to speak at 
a christening of the Little Rock, and it was done in Buffalo. 
It was the first time they had ever--the old Little Rock is 
retired there at their museum, and so the new ship was 
christened alongside. It was a great experience. I had the 
opportunity to talk.
    My concern during the talk was that my teeth were 
chattering so much that anybody would be able to hear me. Great 
crowd, thousands of people there, and it really was a 
tremendous opportunity.
    Admiral Richardson, General Neller, we appreciate your 
service so much, not only outstanding careers, but really just 
great examples. Like I say, we appreciate that very, very much.

                              CAMP LEJEUNE

    We had the opportunity to visit, General Neller, about what 
has gone on with Hurricane Florence, Camp Lejeune. I do not 
think most people realize that the Marine Corps does not have 
the bases spread out all over the place like the rest of the 
services.
    We are actually going to go to Camp Lejeune later in the 
month and see firsthand, and again are committed to helping 
anybody that we can.
    Can you talk a little bit about in regard the resources 
that you spent? I think you had $400 million. Can you give us 
an update on what is going on there?
    Then also, what more is still needed? What are the impacts 
to readiness if you do not get the help that you need?
    General Neller. Well, Senator, as you and I have discussed, 
we have come up with what we think--it is expensive. It is a 
lot of money, but we believe to repair, to repair the buildings 
would be much cheaper, but these are older buildings. Some of 
them were already scheduled to be razed and rebuilt, and that 
was in the budget. So that is part of the cost.
    For us to pay this bill out of our own resources without 
some sort of supplemental or reprogramming, it would probably 
take our MILCON budget for the next 5 years, and as the 
Secretary said, MILCON always is kind of the bill payer for 
other things as you reprogram or as you decide to make the 
choices that you make.
    So we believe we could have spent about $885 million, just 
under $900 million this year, some that we have provided out of 
our own resources. The majority of that, the $400 million, was 
from reprogramming that was approved by the Congress for money 
that the Department of Defense was able to put up for 
reprogramming. So we still think we could spend another $450 
million to get it on contract to use it effectively.
    We are hoping that in the budgets, this budget that we are 
talking about today and future budgets, that there will be 
additional money to help repair buildings where it makes sense, 
but in most cases, these buildings need to be replaced, and we 
have a master plan to do that and I think we have costed out. 
So that is kind of what we are trying to get people to see that 
we need to do this.
    The Department of Defense is not a self-insure 
organization. We rely on the Congress to appropriate the money 
if we have a huge disaster like we have had with Hurricane 
Florence, just like the folks up on Offutt had with the floods 
and others have had with fires and Tyndall down in Florida had 
with Hurricane Michael.
    So that is kind of where we are, and we will continue to 
build-operate. I mean, the housing was damaged there, but that 
is being paid for and fixed consistently, not as fast as we 
would like, but it is getting done by the public-private 
venture. So the housing thing is being taken care of, and it 
will be taken care of when we are working with them.
    So the readiness I think is just operating in substandard 
facilities. The electrical grid is at risk. You have got people 
working in office spaces or have moved to other places because 
their buildings lack heating and air conditioning, and the real 
concern is that we have another big storm this--you have got 
hangars where the workspaces were damaged, and they patched 
them. It will work as long as we do not have another storm.
    We are going to have another storm, and so this is an issue 
not just for us, but others that live on the coast because a 
lot of the military facilities in the Nation are postured, 
particularly the Naval force, on the coastline because that is 
where we generate our power from and that is where we deploy 
from.
    Senator Boozman. Right.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman.
    Secretary, General, Admiral, thank you for being here.
    Admiral and General, thank you for your career of service. 
Thank you for your partnership with the State of Hawaii, with 
the United States Senate. I really appreciate it.

                                  GUAM

    General Neller, I want to talk to you about Guam. Where are 
we with moving marines to Guam? Where are we with lift? Where 
are we with training facilities?
    General Neller. Senator, we are still on the current DPRI 
(Defense Policy Review Initiative) improvement implementation 
plan. So there is MILCON that is going to be awarded or design 
awarded later this year that will put us in a position where 
the force type that goes to Guam will start to be solidified.
    We have said and the Marine Corps has always said and my 
predecessors have always said that we are content to go to Guam 
if we have decent quality of life or acceptable quality of 
life, which I believe we will with the current plan that we get 
the lift to be able to move to different training venues and we 
have a place to go train that is in the vicinity, particularly 
in the Northern Mariana chain.
    With the training, there is still discussions going on with 
the Government and the environmental impact. So that has yet to 
be played out.
    Senator Schatz. Right. And then lift----
    General Neller. And that is to be determined.
    Lift would have to come. There is right now--I have talked 
to the CNO about this recently. There are high-speed vessels or 
other platforms that could be used to move forces in the 
general area, but to pick forces up of any substantial size, 
you would need STRATLIFT, which is available. You would have to 
resource it and pay for it, or you would have to have amphibs 
come from either Japan or from the West Coast to pick marines 
up to move them around, or you would have to contract to----
    Senator Schatz. But why--I mean, listen, I do not have a 
military background, but it seems to me that if the purpose of 
having marines on Guam is to be in the region, is to be 
forward, is to be ready to fight tonight, and then there is a 
moment and you got to fight tonight, and you have got to wait 
for San Diego to bring you the lift, it defeats the purpose. 
You might as well keep the marines on CONUS (Continental United 
States) or in Hawaii.
    So tell me why this plan still makes sense, other than our 
geopolitical commitments and the difficulty on Okinawa.
    General Neller. Well, the plan in Okinawa makes sense 
because they are building the Futenma replacement.
    Senator Schatz. Sure.
    General Neller. I mean, that is going to happen. It is 
going to take a little longer than we thought.
    There have been a lot of discussions about this.
    Senator Schatz. What is your personal view? Does this make 
sense still?
    General Neller. The plan, as it is currently designed, I 
think is worthy of possibly a review. That is my personal, 
professional opinion.
    Senator Schatz. Thank you.

                    PETROLEUM IN PEARL CITY AQUIFER

    Secretary Spencer, you and I have had multiple 
conversations about Red Hill, and I just have a very simple 
question for you. Do I have your commitment? Do I have the 
Department's commitment that you will not allow any petroleum 
product into the Pearl City aquifer?
    Secretary Spencer. You do, Senator. We are your neighbor. 
Obviously, the whole Hawaii infrastructure is tremendously 
important to us, and we will be a responsible neighbor in that 
regard.
    Senator Schatz. Okay.

                   PROJECTS TO DEFUND FOR BORDER WALL

    Secretary Spencer, Secretary Shanahan set a May 10th 
deadline to list which MILCON projects could be used to pay for 
the $3.6 billion in DHS (Department of Homeland Security) 
border wall projects. Have you given a prioritized list of 
projects to defund?
    Secretary Spencer. Not yet, Senator.
    Senator Schatz. May 10th is the deadline.
    Secretary Spencer. Correct. I have not gotten input yet.
    We went through the first cycling, which was the actual 
date-driven filter, and that is all I have gone through so far.
    Senator Schatz. Will this Committee or the Congress receive 
these lists prior to the 10th or on the 10th?
    Secretary Spencer. That would be the Secretary, sir.
    Senator Schatz. Okay.

                      SHIPYARD MAINTENANCE ACCOUNT

    Admiral Richardson, how much is the Navy short in the 
shipyard maintenance account this year?
    Admiral Richardson. It is a running number. We sent over 
the unfunded priority list, which is----
    Senator Schatz. Can you give me a range?
    Admiral Richardson. It is about--I think about $100 
million.
    Senator Schatz. Okay.

                              CAMP LEJEUNE

    General Neller, the Marine Corps had to divert sustainment 
funding to pay for hurricane recovery at Camp Lejeune. How much 
more are you going to need just for the cleanup?
    General Neller. For the cleanup, I think we have already 
done the cleanup, Senator. I think what we are looking to do 
is--we had the money to be able to clean up, take out the mold. 
There is still some other remediation, but the $400 million 
that we have been given from Congress is going to lead us into 
that direction, and we believe we can spend another $450 
million this year.
    Senator Schatz. Thank you.

                      SHIPYARD MAINTENANCE ACCOUNT

    Admiral Richardson. Senator, let me just revisit. It is 
$100 million for ships, about $150 million, and then if you add 
on the attack submarines, it is about $800 million total.
    Senator Schatz. $800 million total. Thank you.
    Senator Shelby. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    Thank you all for being here. I appreciate your service and 
the people you represent.

              FISCAL YEAR 2020 BUDGET V. FISCAL YEAR 2019

    So the fiscal year 2020 oversees contingency operation 
budget for Navy, Marine Corps' $30 billion more than fiscal 
year 2019 budget. The increase is primarily under Navy 
operations and maintenance for accounts such as airlift 
maintenance, ship maintenance, ship operations, and base 
operations.
    The fiscal year 2020 budget, on the other hand, is $20 
billion less than the fiscal year 2019 budget.
    Secretary Spencer, can you explain why we are shifting tens 
of billions of dollars from the base budget to the OCO budget?
    Secretary Spencer. Senator, when I generate my numbers, 
they are gross numbers, and that is where I look at them. I do 
not have an answer for you in that regard.
    Senator Tester. Okay.
    Can you get me an answer in that regard?
    Secretary Spencer. I will get you an answer, Senator.
    Senator Tester. Thank you very much, Mr. Secretary.

                        DEPLOY OR GET OUT POLICY

    Secretary Shanahan recently testified that there are 
roughly 21,000 fewer non-deployable servicemembers because of 
DOD's Deploy or Get Out policy.
    Look, I think we all have concerns about policies to 
arbitrarily force out servicemembers who may be dealing with 
problems like mental health, behavioral issues, and not getting 
the help they need.
    Is the Navy and Marine Corps keeping track of how many 
servicemembers are separating because of this policy, the 
reasons for the separation, and the character of their 
discharge?
    Secretary Spencer. We are, sir. We can get you some 
information on that, if you would like. I will follow up with 
detailed information. We keep track of it.
    Senator Tester. That would be great.

                       MENTAL HEALTH FOR SOLDIERS

    I am also concerned about the lack of resources dedicated 
to guardsmen and reservists seeking mental healthcare. I mean, 
this is a huge issue. We can go up and down. We can have 
hearing after hearing on this because we are losing far too 
many folks because of mental health.
    Because of that, we introduced with Jerry Moran the CARE 
for Reservists Act. The bill assists men and women by providing 
them access to vet centers and VA mental health services.
    Secretary Spencer, are there resources in your budget, in 
your budget request to expand mental health services for 
soldiers, especially those who are in the guard and reserve who 
have not been activated?
    Secretary Spencer. I think, as you might know, Senator, we 
have the program that, again, is almost a poster child program, 
the Outreach Program, which is one of the ones we are funding 
that we use as a good venue, which is for those reservists that 
are in rural areas to make sure we can touch people in the 
rural areas.
    And, yes, when it comes to active duty transition to non-
active duty, we address the fact that in the Transition 
Assistance Program, the availability of the resources are made 
present to the candidate who is leaving.
    It is a key of ours. We realize that just as important as 
retention of our people, the transition to their non-active 
duty life is just as important.
    Senator Tester. And when you talk about availability for 
reservists, are you also including the guardsmen in that too, 
in that statement?
    Secretary Spencer. That is not in my wheelhouse. I am 
reserve only in the Navy and Marine Corps, sir.
    Senator Tester. Okay. I got you. Okay. All right.
    Well, thank you. Thank you very much. I appreciate it.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.

                             NUCLEAR TRIAD

    First, Admiral--thanks to all of you for being here. Thanks 
for your service. First for Admiral Richardson, General 
Goldfein was in front of this committee not too long ago, and 
we talked about the nuclear triad and his commitment to the 
nuclear triad, not just the Air Force aspect, the long-range 
bombers, but also the ICBMs (intercontinental ballistic 
missiles).
    He also expressed his commitment to the submarine fleet and 
the need for a triad, all three legs.
    I would like your comments on the necessity of having all 
three--I am guessing you are probably a pretty strong proponent 
of the submarine leg.
    Admiral Richardson. That is a safe assessment, sir.
    Senator Hoeven. Yes, you can comment on that, but I would 
like to understand your feeling about the entire triad and the 
importance of the triad.
    Admiral Richardson. Sir, we have analyzed this over and 
over and over and come to the same conclusion that the 
deterrent power of the Nation is best served by a triad with 
all three legs.
    Senator Hoeven. And with what is going on in terms of 
weapon development on the part of our adversaries like Russia, 
China, and others, would you say it is increasingly important 
that we not only have a commitment to the triad, but that we 
have a commitment to upgrading and modernizing the triad?
    Admiral Richardson. Absolutely. Without question, sir, and 
that is why the Nuclear Posture Review reinforced that, every 
aspect of the triad, including not only the legs, but the 
command and control that connects that with the national 
command authority and also looking at some low-yield weapons 
and sea-launched cruise missiles as well.
    Senator Hoeven. And I would ask the similar question both 
to the Secretary and to General Neller.
    Mr. Secretary.
    Secretary Spencer. I could only reverberate what the CNO 
just said, Senator.
    Senator Hoeven. Thank you.
    General Neller.
    General Neller. The Joint Chiefs have looked at this, and 
we support the posture review and support the comments of 
Admiral Richardson.

                             COLOMBIA CLASS

    Senator Hoeven. For both the Secretary and the Admiral, are 
we on schedule with development of the new Columbia-class 
boomers, and do you feel we are on track? Are there major 
challenges or concerns that you have?
    Admiral Richardson. I will be happy to take that, sir. We 
are on schedule, but just on schedule; and we are on cost, but 
just on cost. So both the Secretary and I have made it very 
clear that looking forward and anticipating those things that 
will inevitably arise during testing and everything of such a 
complex program, we need to work diligently to build more 
margin into the program.

                           NEW VIRGINIA CLASS

    Senator Hoeven. Secretary Spencer, recently the USS North 
Dakota was at Annapolis for the cadets to take a look. We are 
very proud of that submarine and its crew, and it was just 
returned from some very impressive missions. And we are pleased 
that that is the submarine they brought up for the cadets to 
see. Usually, you bring your top performers when you want the 
future looking at it, so we took that as a very positive sign. 
They are truly impressive.
    The Virginia-class submarine construction program, 
procurement, building, development has been a real success 
story, on time, on budget, the way we want things to roll.
    I see now you are asking for a third submarine to be built 
this year of the Virginia class. Can you do that and stay on 
schedule, as we talked about with the boomer, given the 
tightness that the Admiral just expressed?
    Secretary Spencer. Senator that is a valid question. As we 
look at the importance of Columbia, you cannot overlook 
Virginia because in this industry, we are all in the same 
environment with those two platforms.
    You have heard the CNO's comments about how we are on 
schedule tightly and we are on budget tightly. There is no room 
to slip, and we are managing Virginia in the exact same way.
    The third submarine we deliver is at 2023 down the line. We 
are sitting down, interestingly enough, the timing of this, I 
think in 2 weeks, with the CEOs of our two primes to really 
make sure that we have the full assessment of risk in that 
regard.
    Senator Hoeven. Well, you have certainly done well with the 
Virginia-class program, and I commend you for that. That is how 
we want all of these programs to run----
    Secretary Spencer. Yes.
    Senator Hoeven [continuing]. And we cannot take that for 
granted----
    Secretary Spencer. No.
    Senator Hoeven [continuing]. When you see a program that is 
as well run as that one has been.

                          TRAINING OF MARINES

    General Neller, my father was in the Marine Corps. He was 
always incredibly proud of that until the day he died. Even 
though he was retired, you still had to say he is a marine, not 
that he was a marine. Since now he has passed, I can say he was 
a marine. But I thank you for your service.
    One of the challenges I see is with these young people, we 
put them into hot zones around the globe, and we have such an 
incredible set of expectations for them to go beyond the war 
fight.
    As you are recruiting these young men and women into the 
force, how do you train them? How do you prepare them for all 
these things that go beyond the war fight as we put them into 
locations around the world and it involves so many other 
geopolitical aspects? Is there an aspect to the training now 
that takes that into account for these young people and the 
difficult situations that they are thrust into?
    General Neller. The ``go where I tell you to go, and do 
what I tell you do to, and you do not need to understand it'' 
days, I think are gone.
    Senator Hoeven. The complexity is unbelievable.
    General Neller. I am not sure they ever existed, 
particularly now.
    So I believe that you have to understand the rules of 
engagement. You have to understand the culture and the 
political environment that you have been set into. You have to 
understand different things about the country you are in and 
the history, and that is all part of the training process.
    The young men and women that serve in all of our forces, I 
think when they are forward deployed, their performance is 
exemplary. They are competent. They are smart. They are 
focused. They understand. They have something to sign on. They 
have that mission. So that is really not the concern for me.
    The concern is when that mission is over and they come 
home, and there is no way you can replicate that same energy of 
focus at home station. Training is training. Real is real. And 
so I could show you this is how it is supposed to look when 
they are forward deployed, and the great majority come back and 
they manage. They do a great job too, but it is more 
challenging back in what we would call the ``garrison 
environment.''
    So I am confident that we are doing what we need to do to 
explain the realities of the environment that they are in. I 
think they are aware of what is going on in the world. They are 
aware of great power competition. They are grown as digital 
natives. They have access to communications and information. In 
those ways, there are huge advantages, the way we were not 
maybe 10, 15, 20 years ago, but they also are subject to other 
influences that we were not subjected to 15 or 20 years ago.
    So I am confident that they understand the context that 
they are in, which I think is supportive of why they are doing 
such a great job.

                             FORCE STRENGTH

    Senator Hoeven. Is your force strength adequate for the 
missions that you are called on to do, and are you able to 
recruit to it?
    General Neller. Yes.
    Senator Hoeven. Thank you.
    Thank you, Mr. Chairman.
    Senator Shelby. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman, and, gentlemen, 
thank you for your service. Thank you for your leadership.

          U.S. SOVEREIGNTY IN ARCTIC, AND STRATEGIC OBJECTIVES

    First question for you, Admiral Richardson. And just so you 
all know, all the questions will be about the Arctic. No 
surprise.
    But, Admiral, when you appeared before the Senate Armed 
Services Committee back in April, you mentioned that you signed 
on to a strategic outlook for the Arctic, which you said talked 
about the strategic objectives to defend U.S. sovereignty up in 
the Arctic.
    Can you briefly summarize the conclusions that were reached 
in that strategic outlook and also, more specific to this 
committee, what sorts of funding needs the Navy will require to 
accomplish those strategic objectives?
    Admiral Richardson. Yes, ma'am.
    Well, one, it raised a couple of major points, and I will 
be happy to provide you more details for the record.
    Senator Murkowski. I look forward to that, yes.
    Admiral Richardson. In fact, I will give you--the whole 
outlook itself is available.
    Senator Murkowski. Great.
    Admiral Richardson. But it talked, as you said, about 
defending our sovereignty to make sure that we manage the 
dynamic situation in a stable and conflict-free way. That we 
are mindful of our responsibilities up there, to preserve the 
freedom of those seas and those international passages, and 
then also to be mindful that we are part of a group of Arctic 
nations that have to operate together in a collaborative way to 
manage these--I guess emerging opportunities is the way that 
you would best characterize it.
    So the strategy talks through all of that and then points 
to making sure that we spend sufficient time up there so that 
we become familiar with the unique aspects of operating in the 
Arctic.

                      BUDGET, IN REGARDS TO ARCTIC

    Senator Murkowski. Then specific to that, how does this 
budget reflect some of those priorities and making sure that we 
are spending sufficient time?
    Admiral Richardson. I think most of that would come through 
our operations and maintenance budget as we start to budget for 
those exercises that would go up there.
    In fact, Senator, as you are aware, we have increased the 
number of exercises that we have done up there several 
exercises in 2018 and 2019, over and above historical norms.
    We have been consistent with our submarine ice camps up 
there. We sent the Harry S. Truman Strike Group north of the 
Arctic Circle for the first time since 1991, and we have got 
more planned, a major exercise with the Marine Corps up in 
Alaska this fall, and looking forward to continuing to build 
our skills there.

         ARCTIC DOMAIN AWARENESS CENTER AND PORT IN BERING SEA

    Senator Murkowski. Let me ask you, Secretary Spencer--and I 
appreciated the conversation that we had discussing ADAC 
(Arctic Domain Awareness Center) in some depth.
    Can you share with me with as much specificity as you can 
the Navy's immediate and future intentions for the use of the 
facilities there in ADAC specifically, whatever amphibious 
exercises, the use of the airstrip, and really how you might 
intend to utilize ADAC, whether you are adequately funded to do 
so in the near term?
    Then also, if you can address, again, as specifically as 
you can, the Navy's interest in a deep-water port in the Bering 
Sea and where you are in any conversations with regards to 
funding of that?

                            ARCTIC ACTIVITY

    Secretary Spencer. Yes, Senator. As we talked and to again 
amplify what the CNO said, one of my first events being 
Secretary of the Navy was the Arctic Council in Reykjavik, and 
it truly was an eye-opener for me because sitting across the 
table was our Russian counterpart talking about the 10,000 
Spetsnaz he has up there and the runways that he is bringing 
back to life for search and rescue. So it really was an eye-
opener.
    And then as we started to peel the onion back, you saw all 
the Arctic countries, what they are doing up there, but more 
importantly and more concerning is the back-bench countries 
that are not Arctic countries but are now putting themselves 
into the area. So it is a definite area of concern, and the 
United States Navy and Marine Corps is taking that into 
account.

                     ARCTIC DOMAIN AWARENESS CENTER

    When it comes to ADAC, the concept there is to do an 
exercise, amphibious exercise. There is an airstrip there, as 
you know, which will be involved also. We are talking about----
    Senator Murkowski. It is more than an airstrip. It is a 
pretty darn good airport there.
    Secretary Spencer. It is. You have regularly scheduled 
service in there I think three times a week.
    Senator Murkowski. Right. Yes.
    Secretary Spencer. And we are talking about bringing the P-
8s up there for possibly the exercise also. It is a gem of a 
place to train.
    I know the Marine Corps has looked at it intently for this 
summer for the September exercise.
    We also have a May exercise coming up where we are doing 
something more on the mainland of Alaska with ship-to-shore 
refueling and some other exercises that we will be doing.

                                  PORT

    When it comes to the port, while we do not have a 
requirement for a port, yes, having a deep-water port such as 
Nome would be an advantage in the area. This summer, the CNO 
and I have talked about having an exercise to go to the Bering 
Sea. We are still exploring to see if we could do a full 
passage. There is still ice up there in some places. We have 
been in the high Atlantic with the Truman. All of these are the 
beginning of the drumbeat that you will see us with regular 
operations in the Arctic.
    Senator Murkowski. Well, you know we welcome that. We think 
that it is of a necessity.

                    NON-ARCTIC NATIONS IN THE ARCTIC

    You mentioned Arctic Council. I am going to be going over 
to Finland next week for the Arctic Council there----
    Secretary Spencer. Excellent.
    Senator Murkowski [continuing]. With the Secretary of 
State.
    You mentioned those countries that are not Arctic countries 
that are engaged. I am going to be participating in yet another 
Arctic conference that will be held in Shanghai.
    So if you have other nations that are clearly non-Arctic 
nations that have as keen an interest as we are seeing right 
now, I am pushing us at all levels, at all departments, to be 
engaged, to stay engaged.

                      TRAINING IN POTENTIAL ALASKA

    General Neller, twice now the marines and their activities 
have been mentioned here. You clearly have interest in ADAC, 
but we are also interested in whether the Marine Corps might 
find the cold weather training opportunities in and around the 
interior part of the State desirable.
    I know that you have looked a little bit at the Northern 
Warfare Training Center. Do you see increased use of that, or 
is the mindset here going out to the Aleutians and the ADAC 
area?
    General Neller. Senator, there is never too many places to 
go train.
    Senator Murkowski. And we have got lots of places, as you 
know.
    General Neller. And you have got a lot of space.
    Senator Murkowski. They make you tough. You know that.
    General Neller. Whether there is aircraft going to Eielson 
and doing the instrumented ranged up there, which is a great 
place to go because it is the biggest airspace we have to go 
train, there is a Marine Regimental Headquarters and some 
HIMARS rocket artillery up there right now doing an exercise in 
support of NORTHCOM and Indo-PACOM. You mentioned the exercises 
this fall. So we have had more marines in Alaska the past 3 or 
4 years than I think we have had in the distant past.
    So we have our own organic Warfare Training Center for 
mountains in California, but they do collaborate with the Army 
unit up there.
    So we are always looking at places to train or to deploy 
to, to get advantage of the training areas, and there is great 
training there at Elmendorf, Richardson, and also up at 
Wainwright.
    So we continue to look at that, and it will be tied to 
where we end up at the end of the day with the Pacific laid 
out.
    Senator Murkowski. Well, know that we look forward to 
working with all of the respective branches as we are paying 
appropriate attention to what is happening up in the Arctic. So 
thank you, gentlemen.
    Thank you, Mr. Chairman, for allowing me to extend my time.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Shelby. Thank you, Senator.
    We appreciate your appearance, Mr. Secretary, Admiral, 
General, before the committee today. There will probably be 
some additional questions submitted by other Senators that were 
attending other committees today.
    Subject to all that, I hope you would answer those within a 
reasonable time if they are submitted to you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted to Hon. Richard V. Spencer
            Questions Submitted to Senator Richard C. Shelby
                     ship collisions and readiness
    Question. In the fall of 2017, two deadly ship collisions in the 
Pacific theater involving the USS Fitzgerald the USS McCain killed 17 
sailors. As a consequence, the Navy conducted a Comprehensive Review 
(CR) and Strategic Readiness Review (SRR) of virtually all surface 
fleet operations and has begun implementation of dozens of 
recommendations.
    Secretary Spencer, can you give us an update on the implementation 
of recommendations following the tragic ship collisions in the Pacific 
involving the USS Fitzgerald and USS McCain that killed 17 Sailors?
    Answer. The Readiness Reform and Oversight Council (RROC) is 
managing the implementation of 111 recommendations that originated from 
the Strategic Readiness Review (SRR) and Comprehensive Review (CR). As 
of May 2019, 100 of those recommendations have been implemented. We 
expect to have the remaining 11 recommendations implemented by the end 
of September 2019.
    Question. Secretary Spencer, does your fiscal year 2020 budget 
request continue to fully support these initiatives?
    Answer. The fiscal year 2020 President's Budget (PB) submission 
includes $346 million in Readiness Reform requirements and a total of 
$1.1 billion is projected across Future Years Defense Program for CR/
SRR initiatives. The most significant investment is $179 million to 
fund training improvements and military construction for Mariner Skills 
Training Centers. Additional investments include Next Generation 
Surface Search RADAR ($80 million) and the reestablishment of Second 
Fleet ($33.5 million).
    At time of submission, PB-20 fully funded all Readiness Reform 
Oversight Council validated CR/SRR related requirements. One of the CR 
recommendations was to conduct design and procedural reviews of various 
bridge control systems in the Fleet to assess safety, reliability, and 
human machine interfaces. This effort is ongoing, but the investigation 
has determined that an investment should be made to improve reliability 
upgrades to DDG Integrated Bridge and Navigation System and associated 
systems. This requirement ($19 million) has been communicated to 
Congress via the Navy's fiscal year 2020 Unfunded Priorities List.
    Question. Admiral Richardson, the USS McCain completed its drydock 
repairs last November, and we were pleased to hear that the USS 
Fitzgerald is drawing closer to returning to sea. Could you please give 
us an update about these ships and the capabilities they bring to the 
fight?
    Answer. Since December 2017, USS John S. McCain (DDG 56) has been 
undergoing repairs at the U.S. Naval Ship Repair Facility--Japan 
Regional Maintenance Center in Yokosuka, Japan. During the ship's 
restoration, the Navy found the ship's port shaft misaligned. The 
misalignment was likely caused by the collision which occurred on 
August 21, 2017. The misalignment was found during the planned testing 
sequence in March and re-verified in May. Completing the shaft 
alignment will require between 3 and 6 months. We are working multiple 
shifts to restore USS John S. McCain's shaft and finish all remaining 
work items. The ship delivery is planned for late 2019.
    USS Fitzgerald (DDG 62) achieved a milestone in its complex repair 
and restoration on April 16, 2019, with her successful launch in 
Pascagoula, MS. Since the ship's arrival in Pascagoula in January 2018, 
work has focused on restoring the integrity of the hull and topside 
structures that were damaged in the 2017 collision. Restoration efforts 
have focused on the impacted spaces to return them to full operations 
and functionality. The ship is also receiving significant warfighting 
capability upgrades over the next year to ensure it returns to the 
Fleet with improved capability and lethality. A shaft alignment check 
was performed and was satisfactory. USS Fitzgerald delivery is planned 
for spring 2020.
               fiscal responsibility and business reform
    Question. Secretary Spencer, the 2-year budget deal for fiscal 
years 2018 and 2019 provided additional appropriations to the 
Department of the Defense and the Navy. The current request includes a 
further increase. At the same time, we understand that your budget 
request includes several programs that continue the incorporation of 
new business processes to within the Navy's financial management system 
to ensure funds aren't waste.
    Secretary Spencer, can you give us some examples of successes from 
your new business processes and explain how the Navy is ensuring that 
taxpayer funds are being spent well?
    Answer. In support of the National Defense Strategy, the Defense 
Business Operations Plan prescribes reform across all business areas as 
a means to drive greater efficiency and improving cost savings in order 
to get the most out of every dollar. The ultimate goal is to 
institutionalize a culture of performance and productivity within the 
Department of the Navy (DON). This fiscal year 2020 DON budget achieves 
savings of $1.9 billion in fiscal year 2020 and over $9.4 billion 
across the Future Years Defense Program (FYDP) due to Navy and Marine 
Corps' reforms. Additionally, DON continues to track reform savings of 
over $25 billion savings in the FYDP for reform efforts that began in 
previous budget cycles. Some of our successes that we have tracked in 
new business processes include:
  --Pursued divestment of legacy systems and programs
  --In the area of acquisition process improvement, we have multi-year 
        contract savings and two CVN buy. ($3.2 billion FYDP)
  --In the area of Policy Reform, Sailor 2025--Navy Manpower Personnel 
        Training & Education transformation efforts modernize our 
        personnel and training system for better career readiness, 
        improved performance, and increased productivity. (Navy 
        Personnel & Pay cloud hosted system with improved auditability 
        and pay accuracy).
    Audit has become part of our culture, feeding continuous 
improvement of our financial management systems which will result in 
better stewardship of taxpayer dollars. Audit and reform go hand in 
glove and will translate to greater readiness and lethality.
    Audit has led us to pursue further improvements such as:
  --Consolidating and reducing the number of accounting systems used;
  --Expanding capabilities of the Enterprise Resource Planning (ERP) 
        system;
  --Strengthening internal controls governing business systems, 
        including security, access, and interface;
  --Reducing the number of systems feeding transactions to the 
        accounting systems, eliminating redundancy.
                        return of sequestration
    Question. Secretary Spencer, The budget caps created by 
sequestration remain in effect for fiscal years 2020 and 2021. What 
impact would a return to sequestration have on the Navy and Marine 
Corps?
    Answer. If sequestration were to occur in fiscal year 2020, the 
estimated sequestration impact to the Department of the Navy (DON) is 
-$26 billion (-$20 billion Navy/-$6 billion USMC). Actual impacts in 
fiscal year 2020 are dependent upon how the defense strategy is de-
scoped. If reduced to Budget Control Act levels, the Nation will have a 
smaller and less lethal Navy and Marine Corps. The DON will not be able 
to maintain current levels of military readiness as broadly across the 
force, the same global posture, or current levels of operations; and 
would have to re-balance capability, capacity, and readiness 
investments.
    The Navy will be unable to provide trained and ready naval forces 
at the level required by combatant commands (reduced steaming days and 
maintenance availabilities) and current deployment levels would not be 
sustainable even with prioritizing current missions (10-11 deployment 
cancel/delay). This significantly reduces ability of Navy to respond to 
contingencies (surge capacity), limiting the President's options and 
decision space.
    For the Marine Corps, sequestration would constrain them to 
prioritize near-term readiness at the expense of equipment 
modernization and infrastructure sustainment and reevaluate their end 
strength levels. It forces difficult tradeoffs that will likely degrade 
the Marine Corps response to a major contingency today and adversely 
affect their ability to build a ready force for tomorrow.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins
    Question. Secretary Spencer, I know you have visited shipyards 
across the country, including two visits to Bath Iron Works now, and 
that you understand the importance of investments in modern shipyard 
infrastructure and design tools. Would you please comment on the 
importance of our two large surface combatant shipbuilders having a 
shared baseline and toolset that is state-of-the-art and user-friendly 
for engineering, 3-D design, and production capabilities that support 
efficient ship construction, including change incorporation? I 
understand this is a best practice that has been used successfully on 
the Virginia-class submarine program.
    Answer. Having the ability to share baselines and possessing 
toolsets that are state-of-the-art and user-friendly for engineering, 
3-D design, and production capabilities are critical to support 
efficient ship construction. There are varieties of commercial 
engineering products available that provide such capabilities. The 
International Organization for Standardization (ISO) has defined 
several standards that allow for the sharing of data between these 
types of systems. Notably, ISO 10303 commonly referred to as STEP, can 
represent 3D objects in computer-aided design and related information. 
These standards are critical to the support of efficient ship 
construction when sharing of data between systems may be required. 
Though the Navy does not currently intend to direct the use of specific 
products, we will continue working with industry partners on employing 
best practices.
    Question. Admiral Richardson, as the President's National Security 
Strategy has laid out, the U.S. military are increasingly focusing on 
our near peer threats like China and Russia, which have highly advanced 
anti-air systems which are particularly threatening to U.S. fourth 
generation aircraft. What are the F-35 5th generation capabilities that 
help in countering these threats?
    Answer. The F-35C brings fifth generation capability to the Carrier 
Air Wing (CVW) and Carrier Strike Group (CSG). The F-35C's stealth 
characteristics:
  --highly integrated onboard systems,
  --long-range combat identification,
  --ability to penetrate threat envelopes and fuse multiple information 
        sources into a coherent picture to counter threats from our 
        near peer anti-air systems.
    Question. How will the F-35C make the Navy Fleet in whole more 
lethal, survivable and capable?
    Answer. The Carrier Air Wing (CVW) of the future is comprised of a 
mix of 4th and 5th generation platforms such as the F-35C, FA-18E/F 
Block III, EA-18G with Next Gen Jammer, E-2D, and MQ-25. The F-35C with 
low observability and advanced sensors can operate further forward in a 
contested environment, allowing it to collect and disseminate targeting 
information across the entire Carrier Strike Group (CSG). The F-35C 
coupled with longer-range net-centric weapons launched in capacity from 
Super Hornets, Growlers, and Surface Ships makes the CVW and CSG team 
more lethal as a whole.
    Question. I appreciate the Navy's collaboration with the Army in 
signing a MOA earlier this year to ensure the Kennebec River is dredged 
periodically, allowing ships built at Bath Iron Works to safely 
navigate to open ocean. An emergency dredge of the river had to be 
undertaken in 2017 to allow the USS Peralta to join the Fleet. Will the 
Navy ensure that funding to keep this channel clear will be programmed 
into future O&M requirements?
    Answer. Yes, the Navy will ensure funding to keep the Kennebec 
River channel clear is programmed into future O&M requirements. The 
Navy is working to allocate funding to Operations and Maintenance, Navy 
(Budget Activity BA 01; Budget Line Item 1B5B).
    Question. Maine is home to Portsmouth Naval Shipyard, a public 
shipyard that has been called the gold standard by which the government 
should measure shipyards due to its efficient, high-quality work, for 
more than 200 years. In the Navy's new Long-Range Modernization Plan, 
you note that PNSY and our three other public shipyards are ``essential 
elements of U.S. national security.'' You are so right. I also 
appreciate and support the Navy's continued efforts to implement the 
2018 Shipyard Infrastructure Optimization Plan, which includes vital 
military construction projects at all four public shipyards, to include 
projects to expand the capacity of Dry Dock #1 at PNSY, a critical 
MilCon project slated for fiscal year 2021. How does the Navy intend to 
prioritize public shipyard infrastructure in order to make sure there 
is not a critical shortfall in maintenance capacity?
    Answer. Public shipyard infrastructure optimization continues to be 
a high priority to increase sea power through Fleet readiness. The 2018 
Shipyard Infrastructure Optimization Plan (SIOP) provides a framework 
for recapitalizing the infrastructure at the four public nuclear 
shipyards to include: critical dry dock repairs, restoring needed 
shipyard facilities and optimizing their placement, and replacing aging 
and deteriorating capital equipment. The Navy is currently in Phase II 
of implementing SIOP, developing digital twins of the shipyards. Upon 
completion of Phase II, the Navy will know what projects need to be 
completed and when, and will integrate those projects into shipyard 
planning. The SIOP execution strategy for recapitalization will have a 
phasing plan across the public shipyards to account for critical Fleet 
maintenance schedules, and will actively engage with the Fleet and 
shipyards to ensure the projects needed to support the Fleet 
maintenance schedules are prioritized.
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
                     navy ship maintenance backlog
    Question. In a December 2018 GAO report entitled ``Rebuilding Ship, 
Submarine, and Aviation Readiness will Require Time and Sustained 
Management Attention'', the GAO states that, ``For fiscal years 2012-
2018, our analysis for key portions of the Navy fleet shows that 30 
percent of Navy maintenance was completed on time, leading to more than 
27,000 days in which ships were delayed and unavailable for training 
and operations''. What is the Navy's plan for reducing this significant 
maintenance backlog?
    Answer. The Navy released a long-range plan for maintenance and 
modernization of naval vessels that captures the requirements necessary 
to maintain a mission ready Fleet and forms the basis for future 
industrial based capacity requirements. Sustaining a 355-ship Fleet 
will require changes to both public and private industrial capability 
and capacity. Current infrastructure will require updates and 
refurbishment to support modern classes of ships and repair. Likewise, 
additional dry docks will be needed to address the growing Fleet size. 
Navy and industry partners must create work environments where talented 
Americans will want to work and contribute to the national defense. 
This includes investments in updating facilities and capital equipment, 
as well as providing workforce training that is both modern and 
relevant, and compensation commensurate with the skill required to 
repair Navy ships. Finally, we must avoid feast and famine cycles that 
erode both the repair industrial base and the underlying vendor supply 
base. Consistent funding matched to steady demand for work will enable 
the repair base, public and private, to grow to meet the needs of the 
355-ship Navy. Continued congressional support for the Navy's depot 
maintenance improvement initiatives, including public and private 
shipyard optimization, as well as continued support for Navy's efforts 
to level load the workload, maintain a healthy industrial base, and 
improve shipyard performance will help to improve the situation.
    Question. How long will it take to reduce the backlog using the 
current Navy strategy?
    Answer. The 5-year submarine maintenance plan produced in early 
2019 projected the elimination of submarine idle time by the end of 
fiscal year 2023.
    Question. Has the Navy considered using private shipyards beyond 
those located at homeports or the coasts? If so what analysis was done 
and what was the conclusion?
    Answer. Yes, the Navy is required to consider private shipyards 
beyond those located at homeports. Title 10 U.S.C. Section 7299a 
restricts competition of ship maintenance availabilities to the 
homeport for short-term work less than 10 months long. For all surface 
ship availabilities over 10 months long, the Navy issues coast-wide 
competitions for ship availabilities.
    Question. Would it be beneficial for the Navy to utilize feasible 
alternative private shipyards to reduce the maintenance backlog and 
help increase readiness even if it came at a higher initial cost?
    Answer. Yes, there are benefits of utilizing private shipyards 
outside of the homeport for availabilities over 10 months long. 
Examples of work competitively awarded outside of the homeport include:
  --USS Ramage (DDG 61) The Navy awarded this fiscal year 2017 
        availability outside of her homeport (Norfolk, VA) to 
        Huntington Ingalls Industry in Pascagoula, MS.
  --USS Shoup (DDG 86) The Navy awarded this fiscal year 2019 
        availability outside of her homeport (Everett, WA) to BAE 
        Systems in San Diego, CA.
    For submarines, there are also private shipyards currently 
executing submarine availabilities away from homeports:
  --USS Montpelier (SSN 765) The Navy awarded the fiscal year 2016 
        availability outsider of her homeport (Norfolk VA) to Electric 
        Boat in Groton, CT.
  --USS Columbus (SSN 762) The Navy awarded this fiscal year 2018 
        availability outside of her homeport (Pearl Harbor, HI) to 
        Huntington Ingalls Industry in Newport News, VA.
    However, the Navy must carefully weigh related costs when moving a 
ship for long periods. Family separation, crew berthing, travel costs, 
distance from training facilities, required security measures, and lack 
of support services can all impact individual and crew readiness as 
well as true costs outside the specific maintenance contract. There are 
further considerations for nuclear powered ships, which have a limited 
number of shipyards qualified to do nuclear work.
    Question. Does the Secretary of the Navy weigh cost vs. readiness 
when deciding where a ship or vessel can be repaired? If so, please 
explain how this consideration is incorporated in the process.
    Answer. The Navy weighs every decision against the readiness to 
meet particular capabilities and mission sets. Each decision is 
specific to the particular ship repair and balances available resources 
and capacity against priorities based on ship condition and ship 
mission within legal restrictions. This constant weighing of readiness 
and risk assessment is how Navy leadership makes priority decisions and 
is inherent in all processes.
                                 ______
                                 
           Questions Submitted to Admiral John M. Richardson
            Questions Submitted by Senator Richard C. Shelby
                        great power competition
    Question. Admiral Richardson, General Neller, with a rising China 
and a resurgent Russia, the U.S. no longer has a monopoly on sea power 
or sea control. Russia and China are also competing with us in other 
domains, such as space and cyber. What are you both doing to improve 
our defensive and offensive capabilities to ensure we stay ahead in 
these warfighting domains?
    Answer. (Admiral Richardson): Over 10 years ago, Navy leaders 
anticipated the expanding scope of warfighting in the 21st Century. 
They recognized that we were entering the Information Age of 
Warfighting, with new areas such as cyber, and expanded areas of 
concern, including space and the electromagnetic spectrum. With great 
foresight, they created a new warfighting community within the Navy--
Information Warfare (IW). IW brought together our information-centric 
specialties, including intelligence, cryptology, information 
professionals (networks/communications), meteorology/oceanography and 
our space cadre to create a community focused on the totality of 
warfighting in the information domain. At that time, the CNO combined 
the N2 (Intelligence) and N6 (Communications) directorates on his OPNAV 
staff to form a combined N2N6 organization to properly define 
requirements and resource this effort. Shortly thereafter, the Navy 
created our Fleet Cyber Command/U.S. 10th Fleet (FCC/C10F) with the 
mission of fighting and defending in the cyber, electromagnetic 
spectrum, and space domains. The IW Enterprise is now fully formed and 
structured, and includes OPNAV N2N6, three operational commands (FCC/
C10F, Office of Naval Intelligence, and Naval Meteorology and 
Oceanography Command), a type command to man, train and equip our 
information warfighters (Naval Information Forces), and a systems 
command to develop and acquire the systems needed for the information 
fight (Navy Information Warfare Systems Command). Navy has also 
established the Navy Information Warfighting Development Center, 
Information Warfare Training Group, and an IW Commander afloat 
construct for Carrier Strike Group staffs to focus on naval and joint 
warfighting in the information environment. The IW Community is now 
fully engaged with our legacy platform-focused communities and efforts 
(surface, subsurface, air, etc.), and partners with the larger national 
Intelligence Community, industry and academia to provide the 
capabilities the Navy needs to fight and win in this new era of Great 
Power Competition.
    Specifically concerning space, the Navy's mission requires forces 
to be expeditionary and forward postured. On average, one third of the 
Fleet is deployed at sea, around the world, on any given day. Due to 
this expeditionary and global, forward deployed nature, the Navy is 
more reliant than the other Services on the capabilities provided by 
space-based assets. The Navy must remain an active component of the 
joint force for space operations and acquisition. The expertise gained 
in the pursuit of space operations and acquisition is critical to 
maintaining the knowledge and ability to fully leverage space 
capabilities given the complex operational and technical challenges 
associated with the space domain. Ensuring access to space-based 
effects requires Sailors who understand both the capabilities of space 
assets and the processes to plan for and obtain space-based effects. 
The Navy has maintained strong participation in DoD efforts to change 
the way we view and operate in, through and from the space domain. 
Efforts are underway in the Navy to build a workforce able to operate, 
resource, acquire, utilize, protect and maintain access to space 
systems, optimizing the Fleet's ability to conduct maritime missions in 
all electromagnetic conditions. The Navy is also working on space and 
information-related ways to contribute to assured command and control, 
increase battlespace awareness, align joint integrated fires, and 
maneuver in highly contested environments to facilitate success in a 
great power conflict.
    With regard to cyber, the Navy completed the Cyber Mission Force 
(CMF) build on 6 October 2017 and has commenced implementation of the 
Joint Staff directed Cyber Command & Control (C2) framework. Navy's 
implementation of the framework is in progress that includes a Joint 
Force Headquarters--Cyber (JFHQ-C) and Cyberspace Operations--
Integrated Planning Elements (CO-IPE) at USINDOPACOM, USFK, and 
USSOUTHCOM (IOC 2020; FOC 2022). The Navy will sustain investment 
levels to support CMF requirements for recruitment and retention, 
training, mission platforms, cyber offensive and defensive 
capabilities, and critical infrastructure to strengthen Title 10 
cyberspace operations and optimize the CMF teams as part of the joint 
force. Navy has implemented a Joint Mission Operations Center--Hawaii 
(JMOC-HI) to support cyberspace operations in USINDOPACOM AOR (IOC FEB 
2019) and supports the development and resourcing of USCYBERCOM's Joint 
Cyber Warfare Architecture (JCWA).
    The Navy is also closely aligned with USCYBERCOM, Combatant 
Commands, joint and interagency partners, and other Services to support 
a whole of government response to cyber threats. A mature CMF will be 
ready to conduct cyberspace operations (offensive and defensive 
maneuver) and will support guidance, specifically, for U.S. Fleet Cyber 
Command through:
  --Development of cyber tools, capabilities, tactics, techniques, and 
        procedures to deliver cyberspace effects in support of the 
        joint force and maritime operations
  --Engagement with industry, government, and academia to steer 
        Research and Development, then apply best concepts and 
        technologies to innovate and accelerate learning
  --Development of a cyber-aptitude and talent assessment vehicle to 
        better predict personnel success and assignment to a variety of 
        cyber work roles
  --Partnering with the United Kingdom Royal Navy and Royal Australian 
        Navy on cyberspace capability development
  --Expanded cyber collaboration activity with other FIVE EYES partners
  --Sharing cyber expertise in support of the Japanese Maritime Self 
        Defense Force's cyber training and education objectives
  --Supporting USCYBERCOM (as the Regional Coordinating Authority for 
        cyberspace activities in INDOPACOM and SOUTHCOM AORs) 
        Persistent Engagement and Partner activities to expand our 
        Nation's ability to ``Defend Forward''
    Answer (General Neller): As we focus on great power competition, my 
imperative is to ensure that our combined arms Marine Expeditionary 
Forces have the warfighting capabilities and capacity to compete and, 
if necessary, win in an uncertain future. Advancements in technology, 
the speed at which information flows in and through the modern 
Information Environment (IE), and the reach which it attains, have 
fundamentally changed the character of modern warfare. The space and 
cyber domains are part of this interconnected IE, and our potential 
adversaries are challenging our access to these domains every day. We 
recognize the need to invest in our offensive and defensive 
capabilities not only to stay ahead in these domains, but to 
effectively compete against peer forces. A defeat in the space or cyber 
domains could negatively impact our ability to maneuver our forces on 
the ground, in the air, or at sea.
    As with all other domains, the Marines continue to be ``First to 
Fight'' in cyberspace; our Cyber Mission Teams (CMT) working in support 
of the cyber counter-offensive mission against the Islamic State of 
Iraq and Syria, Joint Task Force Ares, have conducted multiple, large-
scale operations to support U.S. Central Command and Combined Joint 
Task Force--Operation Inherent Resolve. We are expanding our support 
beyond the CMTs to include cyberspace operational planners working at 
multiple locations both overseas and here at home with partner 
organizations. Within the Marine Air Ground Task Force (MAGTF), we 
continue to integrate cyberspace effects and planning into other 
domains. In this way, we are bringing cyberspace operations to the 
tactical edge of battle, while also generating cyberspace experience 
and expertise within operational units outside of U.S. Cyber Command. 
These experiences will allow operational planners to adapt the emerging 
cyberspace capabilities in such a way that we can incorporate 
cyberspace operations at all levels of conflict across the full range 
of military operations.
    We know that in order to be effective, we must retain a skilled, 
professional cadre of cyberspace warriors, both to fill the CMTs in 
Marine Corps Forces Cyberspace Command (MARFORCYBER) and to operate 
within the MAGTF. For this reason, the Marine Corps established the 
Cyberspace Occupational Field. This will help us professionalize, 
train, and manage our cyberspace workforce in a more deliberate, 
sustainable manner, better enabling the Marine Corps to conduct both 
defensive and offensive cyberspace operations. The Marine Corps has 
added 521 billets for Marines and civilians to our cyber force, which 
will be complete in fiscal year 2022.
    In addition to developing a highly skilled workforce, we continue 
to invest in specialized tools for defensive cyberspace operations. The 
Deployable Mission Support System (DMSS) hardware and software tools 
comprise the weapons system Cyber Protection Teams (CPTs) use to meet 
any mission they may be assigned, from readiness and compliance visits 
to incident response or Quick Reaction Force missions. The DMSS toolkit 
evolves with the threat and is continually revised and upgraded to 
ensure CPTs have the most up-to-date toolkit available for a dynamic 
cyberspace operations mission set. We are also developing a DMSS-like 
toolkit called the MAGTF Deployment Kit (MDK) for the service's 
Defensive Cyberspace Operations--Internal Defensive Measures (DCO-IDM) 
Companies, which will provide an organic defensive cyberspace 
capability within the MAGTF. The first set of MDKs are scheduled to be 
delivered no later than 30 June 2019.
    Recognizing the importance of space-based services such as 
precision navigation and timing, on all operations in all other 
domains, the Marine Corps is working with the joint force to support 
the development of space forces. As part of the development of Marine 
Forces, U.S. Space Command, we completed a holistic re-evaluation of 
all space-related billets, training, and career progression across the 
Marine Corps. As the Joint Force develops U.S. Space Command, we will 
continue to evaluate the Marine Corps' access to space-based 
capabilities and the related workforce requirements.
    Beyond the development of Marine Corps forces and capabilities, our 
experimentation and wargaming efforts continue to focus on designing a 
lethal, agile, and resilient MAGTF optimized for the future. In the new 
reality of a contested IE, these efforts expand beyond traditional fire 
and maneuver to integrated capabilities, such as: offensive and 
defensive cyber operations, operations in the IE, considering the 
resiliency of space-based capabilities, and how to operate effectively 
without full access to such capabilities.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
    Question. In response to my question to you during the hearing 
regarding the request for three Virginia-class submarines and the fact 
that one of them is without the Virginia Payload Module, you responded 
that this decision was made because the industrial base is ``operating 
pretty close to its limits . . . so it's really just a matter of making 
sure that the capacity is matching the program . . . '' Can you 
elaborate on this response? Shouldn't the requirement for the next 
block of Virginia-class submarines to be equipped with this additional 
payload capacity determine what is programmed and budgeted for? Are you 
concerned that this decision could cause inefficiencies in constructing 
Virginia-class submarines?
    Answer. The removal the VIRGINIA Payload Module (VPM) from the 20-1 
ship is executable and also reduces some schedule risk by providing 
relief to the payload tube component and assembly vendors. The efforts 
for development of the required design change will begin in June 2019 
in conjunction with completing the VPM design. Disruption to the supply 
base will be minimal as suppliers will continue to provide many VPM-
related components that will be used to build the non-VPM Blk V ships. 
The PB20 VCS/VPM build profile for Blk V is shown below.


----------------------------------------------------------------------------------------------------------------
                                                                                     Fiscal Year
                                QTY                                 --------------------------------------------
                                                                       2019     2020     2021     2022     2023
----------------------------------------------------------------------------------------------------------------
Non-VPM............................................................        1        1        1        0        0
VPM................................................................        1        2        1        2        2
Total VCS..........................................................        2        3        2        2        2
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
            Questions Submitted to General Robert B. Neller
            Questions Submitted by Senator Susan M. Collins
    Question. General Neller, as the President's National Security 
Strategy has laid out, the U.S. military are increasingly focusing on 
our near peer threats like China and Russia, which have highly advanced 
anti-air systems which are particularly threatening to U.S. fourth 
generation aircraft. What are the F-35 5th generation capabilities that 
help in countering these threats?
    Answer. In an unclassified environment, it would be difficult to 
explain the detailed capabilities that allow us to counter these 
threats; however, in general terms, the F-35 combines 5th Generation 
fighter aircraft characteristics like advanced stealth, integrated 
avionics, and sensor fusion that give pilots an advantage over a 
potential near-peer threat. Essentially, they have the ability to get 
closer to the enemy and employ without being seen, while their fused 
sensors allow for more situational awareness of potential air-to-air 
and air-to-surface threats.
    Question. How will the F-35C make the Navy Fleet in whole more 
lethal, survivable and capable?
    Answer. The F-35C brings unique warfighting capabilities to the 
DoN, the USMC and the MAGTF. The simple fact being the F-35C is larger 
than the F-35B allowing for more fuel, longer legs or flight time by 
more than 40 percent, and the capability to carry a larger class of 
weapons than the F-35B (500-1,000lbs larger than weapons on the F-35B). 
This greatly increases our ability to support forces in a Maritime or 
Joint environment.

                          SUBCOMMITTEE RECESS

    Senator Shelby. Now the Defense Subcommittee will reconvene 
on Wednesday, May the 8th, at ten o'clock a.m. to receive 
testimony from the Acting Secretary of Defense.
    Until then, this subcommittee stands in recess. Thank you.
    [Whereupon, at 11:38 a.m., Wednesday, May 1, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
May 8.]
</pre></body></html>
